<html>
<title> - THE GOLDMAN ACT TO RETURN ABDUCTED AMERICAN CHILDREN: ENSURING ACCURATE NUMBERS AND ADMINISTRATION ACTION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                   THE GOLDMAN ACT TO RETURN ABDUCTED
                  AMERICAN CHILDREN: ENSURING ACCURATE
                   NUMBERS AND ADMINISTRATION ACTION

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 16, 2015

                               __________

                           Serial No. 114-89

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-517 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001







                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
DANIEL DONOVAN, New York


















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Susan S. Jacobs, Special Advisor for Children's 
  Issues, Bureau of Consular Affairs, U.S. Department of State...     5
Ms. Patricia Apy, partner, Paras, Apy & Reiss, P.C...............    30
Mr. Randy Collins, managing director, Bring Abducted Children 
  Home (father of child abducted to Japan).......................    47
Ms. Kelly Rutherford, co-founder, Children's Justice Campaign....    56
Samina Rahman, M.D. (mother of child abducted to India)..........    59
Ms. Diane McGee (mother of children abducted to Japan)...........    79

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Susan S. Jacobs: Prepared statement................     8
Ms. Patricia Apy: Prepared statement.............................    33
Mr. Randy Collins: Prepared statement............................    50
Samina Rahman, M.D.: Prepared statement..........................    65
Ms. Diane McGee: Prepared statement..............................    81

                                APPENDIX

Hearing notice...................................................    96
Hearing minutes..................................................    97
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  Statement of the Honorable Steny H. Hoyer, a Representative in 
    Congress from the State of Maryland..........................    98
  Questions submitted for the record to the Honorable Susan S. 
    Jacobs along with the responses..............................    99
The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Committee on Foreign 
  Affairs: Statement of Sarah Kurtz..............................   102

 
                   THE GOLDMAN ACT TO RETURN ABDUCTED
                      AMERICAN CHILDREN: ENSURING
                  ACCURATE NUMBERS AND ADMINISTRATION
                                 ACTION

                              ----------                              


                        THURSDAY, JULY 16, 2015

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10:04 a.m., in 
room 2200 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. Good morning, and the hearing will come to 
order.
    And we thank all of you, especially all of the left-behind 
parents I see in the audience--and there are many--for joining 
us this morning to discuss how the U.S. Department of State's 
first annual report under the Sean and David Goldman 
International Child Abduction Prevention and Return Act can 
better correspond with the mandate set by Congress and achieve 
the return of abducted American children, which is the ultimate 
objective of the Goldman Act.
    Every year, as we know, an estimated 1,000 American 
children are unlawfully removed from their homes by one of 
their parents and taken across international borders. As many 
of you know all too well, international parental child 
abduction rips children from their homes and families and 
whisks them away to a foreign land alienating them from the 
love and care of the parent and family left behind.
    Child abduction is child abuse, and it continues to plague 
families across the United States and across the world. For 
decades, the State Department has used quiet diplomacy to 
attempt to bring these children home. But we know that less 
than half of these children ever come home, even from countries 
that have signed the Hague Convention on the Civil Aspects of 
International Child Abduction.
    In a hearing I held on this issue back in 2009, former 
Assistant Secretary of State Bernie Aronson called quiet 
diplomacy ``a sophisticated form of begging.'' Thousands of 
American families, still ruptured and grieving from years of 
unresolved abductions, confirm that quiet diplomacy is gravely 
inadequate.
    Last year, Congress unanimously passed the Goldman Act to 
give teeth to requests for return and for access. The actions 
required by the law escalate in severity and range from 
official protest through diplomatic channels to extradition to 
the suspension of development, security, or other foreign 
assistance.
    The Goldman Act is a law calculated to get results, as we 
did in the return of Sean Goldman from Brazil in late December 
2009. But the new law is only as good as its implementation. 
The State Department's first annual report that we are 
reviewing today is the first step in moving past quiet 
diplomacy to results. The State Department must get this report 
right in order to trigger the actions above and for the law to 
be an effective tool.
    Countries should be listed as worst offenders if they have 
high numbers of cases--30 percent or more--that have been 
pending over a year, or if their law enforcement, judiciary, or 
central authority for abduction regularly fail in their duties 
under the Hague Convention or other controlling agreements, or 
if the country simply fails to work with the United States to 
resolve cases.
    Once these countries are properly classified, the Secretary 
of State then determines which of the aforementioned sanctions 
the United States will apply to the country in order to 
encourage the timely resolution of abduction and access cases.
    While the State Department has choice on which tools to 
apply, and can waive actions for up to 180 days, the State 
Department does not have discretion over whether to report 
accurately to Congress on the country's record or whether the 
country is objectively non-compliant.
    As we have seen in the human trafficking context--and I 
would note parenthetically I authored the Trafficking Victims 
Protection Act of 2000 as well as the Goldman Act--accurate 
accounting of a country's record, especially in comparison with 
other countries, can do wonders to prod much-needed reform. 
Accurate reporting is also critical to family court judges 
across the country, and parents considering their child's 
travel to a country where abduction or access problems are a 
risk.
    The stakes are high. Misleading or incomplete information 
could mean the loss of another American child to abduction. For 
example, a judge might look at the report table filled with 
zeroes in the unresolved cases category, such as is the case 
with Japan, and erroneously conclude that a country is not of 
concern, giving permission to an estranged spouse to travel 
with a child for a vacation.
    The estranged spouse then abducts the child, and the left-
behind parent spends his or her life savings and many years 
trying to get the child returned to the United States, all of 
which could have been avoided with accurate reporting on the 
danger.
    I am very concerned that the first annual report contains 
major gaps and even misleading information, especially when it 
comes to countries with which we have the most intractable 
abduction cases. For example, the report indicates that India, 
which has consistently been in the top five destinations for 
abducted children, has 19 new cases in 2014, 22 resolved cases, 
and no unresolved cases. However, we know that from the 
National Center for Missing and Exploited Children that India 
has 53 open cases, and that 51 have been pending for more than 
1 year.
    While the State Department has shown willingness to work 
constructively on making the report better, for example, 
meeting last week with our staff, our June 11 hearing left many 
questions unanswered as to why this report failed to hold 
countries accountable for unresolved cases.
    We wrote the law with the belief that the State Department 
was formally raising these cases by name, with the foreign 
ministries of destination countries, and asked that cases still 
pending for 1 year after being raised would be counted as 
unresolved. But these cases were not included in the report.
    A few parents who reported their cases to the State 
Department years ago, and who have consistently been asking the 
Department for help, were told by their case officers recently 
that the cases were formally communicated to India in May 2015. 
May 2015. Clearly, delay is denial. They thought that that was 
not the case.
    The Goldman Act also requires that the State Department 
take actions against countries, such as India and Japan, if 
they refuse to resolve abduction and access cases. The Goldman 
Act requires the State Department to bring negotiations with 
countries like India and Japan for a bilateral agreement to 
secure resolution of the more than 100 open cases we have 
pending with those two countries, cases that are not listed as 
unresolved in the report.
    The Goldman Act requires an end to the status quo, but the 
first step to change is telling the truth in the report, which 
is why I am so concerned that Japan was not listed as showing a 
persistent failure to work with the United States on abduction 
issues. Japan has never issued and enforced a return order for 
a single one of the hundreds of American children abducted 
there. It holds the world record on the abduction of American 
children never returned. And yet it got a pass on more than 50 
known open cases, most of which have been pending for 5 years 
or more.
    Among those cases is that of Sergeant Michael Elias, who 
has not seen his children, Jade and Michael, since 2008. 
Michael served as a Marine who saw combat in Iraq. His wife, 
who worked in the Japanese Consulate, used documents 
fraudulently obtained, with the apparent complicity of the 
Japanese Consulate personnel, to kidnap their children, then 
aged four and two, in defiance of a court order telling Michael 
on a phone call that there was nothing that he could do. And 
she said, ``My country''--that is, Japan--``will protect me.''
    Her country, very worried about its designation in the new 
report, sent a high-level delegation to the United States in 
March to meet with Ambassador Jacobs, our distinguished 
witness, who will lead off today's hearing, and explain why 
Japan should be excused from being listed as non-compliant, 
despite the fact that more than 1 year after signing the Hague 
Convention on the Civil Aspects of International Child 
Abduction Japan has ordered zero returns to the U.S.
    Just before the report was released in May, 2 weeks late, 
Takashi Okada, Deputy Director of the Secretariat of the 
Ministry of Foreign Affairs, told the Japanese Diet that he had 
been in consultation with the State Department and, ``Because 
we strive to make an explanation to the U.S. side, I hope that 
the report contents will be based on our country's efforts.''
    In other words, Japan understood it could get a pass 
potentially from the United States and escape the list of 
countries facing action by the U.S. for their failure to 
resolve abduction cases based on what Mr. Okada euphemistically 
referred as ``efforts,'' not concrete results.
    Sergeant Michael Elias' country has utterly failed to 
protect him. He has seen zero progress, and I traveled to Japan 
myself with Michael's mother. And the idea there was, as she 
had a very close relationship with her daughter-in-law, that at 
least the grandmother of those children might have access, and 
we utterly failed during that trip to garner any kind of 
access, contact, and certainly no action on returning his 
children.
    The Goldman Act is clear. All results for return that the 
State Department submitted to the Foreign Ministry and that 
remain unresolved 12 months later are to be counted against 
Japan and followed up with action. The Goldman Act has given 
the State Department new and powerful tools to bring Japan and 
other countries to the resolution table.
    The goal is not to disrupt relations but to heal the 
painful rifts caused by international child abduction. The 
question still remains: Will the State Department use the 
Goldman Act as required by law?
    I would like to yield to my good friend and colleague, Mr. 
Cicilline, for any opening comments he might have.
    Mr. Cicilline. Thank you, Mr. Chairman. I want to begin by 
thanking you for your leadership and for calling today's 
hearing on the Goldman Act to Return Abducted American 
Children: Ensuring Accurate Numbers and Administration Action, 
to give us an opportunity to discuss the disturbing increase of 
child abduction cases in recent years and examine how the Obama 
administration has been able to implement the very important 
provisions of the Goldman Act in order to ensure that all 
children that call the United States home are able to return.
    I would also like to thank our distinguished witnesses for 
today's hearing that includes advocates, government officials, 
and, most importantly, parents that have been personally 
affected by international parental abductions.
    I look forward to hearing each of your perspectives based 
on your expertise and personal experiences in this area, 
including your assessment of what more should be done to 
successfully implement the Goldman Act and how Congress can 
assist with effective implementation moving forward.
    According to the State Department, approximately 1,000 
children are victims of international parental abduction every 
year. It is important to note, however, that in recent years 
there has been a significant increase in the number of American 
children being abducted. This sharp increase in abductions is a 
grim indicator that while globalization has brought innumerable 
benefits to us all, the ease of international travel has had a 
negative impact on the number of parental abductions that 
occur.
    For example, over 300 U.S. children have been abducted to 
Japan since 1994. And despite Japan's ratification of the Hague 
Convention on the Civil Aspects of International Child 
Abduction in 2014, many of these cases would not fall under the 
Convention as the ratification does not have retroactive power.
    I look forward to hearing how the administration is working 
to bring all abducted children back, not only from Japan but 
from other countries with high numbers of abducted U.S. 
children, including India and Brazil. And I am very pleased 
that we have witnesses that can speak to their personal 
experiences dealing with abducted children in those countries 
as well.
    I am proud to say that Congress has been quite active in 
this area of the law, with strong bipartisan support 
throughout. In December 2013, the House unanimously passed H.R. 
3212, the Sean and David Goldman International Child Abduction 
Prevention and Return Act. This bipartisan support shows how 
committed this body is to ensuring that children are protected 
and that their welfare remains a top priority.
    The Goldman Act provides a range of steps that the 
administration can take depending on the severity of the 
situation, from a petition through diplomatic channels to more 
serious actions like the withdrawal of foreign assistance or a 
formal request for extradition.
    I look forward to hearing from our witnesses representing 
the administration on how effective these strategies that are 
outlined in the act have been in the short period of time since 
its enactment.
    I will close by saying that we all have a personal stake in 
protecting those that are most vulnerable in our society. The 
welfare of our youngest citizens is of utmost importance, and I 
look forward to working with my colleagues here on the Hill and 
with the Obama administration to ensure that all children 
remain safe and in the custody of those that have been awarded 
that privilege.
    And, again, I thank our witnesses, and thank the chairman, 
and yield back.
    Thank you.
    Mr. Smith. I would like to now introduce our distinguished 
witness, first witness. Ambassador Susan Jacobs currently 
serves as Special Advisor in the Office of Children's Issues at 
the U.S. Department of State. Ambassador Jacobs has had a long 
career in the Foreign Service in which she has served around 
the world, including in Papua New Guinea, where she was 
Ambassador. She has also held a number of senior positions with 
the State Department in Washington, serving as a liaison to 
both Congress and Department of Homeland Security.
    Ambassador Jacobs recently traveled to Japan and to Macau 
for a Hague conference to promote resolutions of child 
abduction and access cases.
    And, Madam Ambassador, the floor is yours.

STATEMENT OF THE HONORABLE SUSAN S. JACOBS, SPECIAL ADVISOR FOR 
CHILDREN'S ISSUES, BUREAU OF CONSULAR AFFAIRS, U.S. DEPARTMENT 
                            OF STATE

    Ambassador Jacobs. Chairman Smith and distinguished members 
of the subcommittee, thank you for inviting me to appear before 
you again. I am very pleased to be here.
    Nothing is more important to me than the safety, health, 
and happiness of my own children and grandchildren. So as the 
Secretary's Special Advisor for Children's Issues, I seek the 
same for all children around the world, especially those who 
are victims of international parental child abduction.
    To the families whose children were abducted, you have my 
heartfelt sympathy. I take your real-life stories with me when 
I meet with foreign government officials, and I raise your 
cases at the highest levels. We recognize that parents who are 
on active military service face an extra burden.
    Abduction is wrong, it is not safe for children, and it is 
not fair to the child or to the left-behind parent, yet these 
cases are complicated and difficult to resolve because once the 
parent and child have crossed an international border they are 
subject to the laws of another country.
    We place great importance on combating international 
parental child abduction. Our work on every case and every 
bilateral relationship matters, and we have the tools that work 
now, but we think with this new law they will be even more 
effective in the future.
    Our work matters. The prevention branch in the Office of 
Children's Issues, working with colleagues at State, with law 
enforcement, and with NGO counterparts, through the 
reinvigorated process given us by the law, has stopped 360 
abductions since 2011, but 66 in the first 6 months of this 
year, 2 of which were prevented just yesterday.
    So this is very good news. We already have reports in 
addition that 202 children have been returned from various 
countries to the United States under the provisions of either 
the Convention or non-Convention. Through the Hague Convention 
on International Parental Child Abduction, one of the most 
important tools that we have, we have partnerships with 73 
countries, and we are seeking to increase the number of 
Convention partners every day.
    But even as we celebrate these successes, we still have 
work to do to return children from Convention and non-
Convention countries. The 2015 annual report was the first 
under the new law. We compiled it under a compressed timeline 
and devoted significant effort to make sure that we included 
everything required in the law.
    We fully understand that this report did not meet all 
expectations. We have received valuable feedback from this 
subcommittee, from others in Congress, from parents, and from 
NGOs about areas that need to be clarified with additional 
data. As Pope Francis said, ``Criticism must be received, it 
must be studied, and dialogue must follow.''
    The 2015 annual report provides important opportunities to 
us. Our diplomatic missions overseas have delivered demarches 
to every country that was listed as non-complying as soon as 
the report was issued. We underscore our ongoing engagement 
through my trips to India, Japan, the Philippines, and Central 
America, as well as through multilateral meetings. We have 
informed governments of the potential repercussions if they are 
designated as showing patterns of non-compliance and followed 
up with demarches.
    Let me talk about Japan for just a moment. I know that you 
and many parents are frustrated with the data that was 
furnished in the report on the Japanese cases. We will be 
posting supplemental data on our Web site with additional 
context that I hope will fill many of the gaps that you have 
identified.
    As of July 1, the Office of Children's Issues, as the 
Central Authority, has cases involving 109 children to Japan. 
These cases include parents who are seeking the return of their 
children, as well as access, and in some cases both. But I 
think that we all agree that one case is one case too many.
    And I know that you and others remain concerned that Japan 
was not cited as demonstrating a pattern of non-compliance in 
the report. But let me underscore: This report is not silent on 
Japan. The report acknowledges that the pre-Convention cases 
have languished for years, with little or no action, and we 
highlight this worrying lack of progress.
    But as a Convention partner, Japan is fulfilling its treaty 
obligations. Japanese courts have ordered the return of 
abducted children to the United States. Japan has appointed two 
Hague network judges and has consolidated courts to hear return 
and access cases. But, still, the treatment of the pre-
Convention cases is problematic, and we did raise every case 
with the Japanese on my recent visit. And we have told them, 
and they understand, that the status quo is not acceptable or 
sustainable.
    With the support of Ambassador Kennedy and the leadership 
of the Department's East Asia and Pacific Affairs Bureau, we 
will continue to work together to resolve the pre-Convention 
cases.
    We also appreciate the great interest shown by this 
committee, and by the Congress as a whole, and I believe that 
we will make more progress on abductions with Japan through 
sustained, proactive, rigorous engagement. In this diplomatic 
engagement, we have found that it is effective with all 
countries, not just Japan, and not just with countries that are 
demonstrating patterns of non-compliance. We analyze every 
country and every case to decide what appropriate actions need 
to be taken.
    Mr. Chairman, members of the subcommittee, we do the work 
on IPCA together. It matters, and it works. Left-behind parents 
and their supporters do not have a choice to be involved in 
this issue. Their involvement is imposed on them by the 
reckless acts of others.
    We in the Office of Children's Issues have voluntarily 
chosen to make this heartbreaking issue our professional 
calling. Numbers and reports may detail our efforts or reflect 
our proficiency, but they cannot show the heart that we bring 
to this important work on behalf of children and families, and 
I am honored every day to lead this team.
    We are committed to fully and successfully implementing the 
law, and we are confident that the tools in the law will be 
even more effective in the future. Your support remains a key 
element to our success in improving the effectiveness of IPCA 
prevention, maintaining IPCA as a priority in our relationships 
with other countries, and pressing for viable resolutions in 
all cases.
    Thank you very much, and I will be pleased to take your 
questions.
    [The prepared statement of Ambassador Jacobs follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Ambassador Jacobs, thank you very much for your 
testimony and for being with us today, and your staff and top 
leadership just several weeks ago on this very issue.
    I have a couple of questions, beginning first with the 
supplemental data which you mentioned.
    Ambassador Jacobs. Yes.
    Mr. Smith. Is that data likely to change the designation of 
Japan from its current status of being non-compliant?
    Ambassador Jacobs. No, it won't, because we were judging 
Japan on its performance as a Convention country. But in the 
report you will notice it is the only country in which we gave 
a detailed narrative, so that we could capture the lack of 
progress in the pre-Convention cases.
    Mr. Smith. Well, with total respect to you, and to your 
office, which I have a great deal of respect for----
    Ambassador Jacobs. Thank you.
    Mr. Smith [continuing]. The report, on page 17, says that 
there are zero unresolved cases.
    Ambassador Jacobs. That will be corrected, sir.
    Mr. Smith. But, you know, remember, the language of the 
Goldman Act made it very clear that the calendar year is what 
needed to be reviewed, whether or not--and, again, even under 
the Hague, as far as I know, and you can correct this if you 
have new information, nobody still has been returned to the 
United States from Japan pursuant to the Hague Convention.
    But the over 50 cases--and we had a--as you might recall, a 
representative from the National Center for Missing and 
Exploited Children, at this witness table just several weeks 
ago, who confirmed what we knew by our own numbers, that there, 
again, are over 50 unresolved cases, many of which are 5 years 
or more.
    Captain Paul Toland, for example, you know, a distinguished 
member of our Armed Forces, you know, had his daughter abducted 
when he was deployed to Yokohama, defending not only the United 
States but also Japan as part of a force agreement that makes 
us very, very close allies. And his wife has passed, and yet he 
still has had neither access nor a return of his daughter, who 
is now a very young teenager, and it has been a dozen years for 
him.
    That case alone, but then when multiplied by one case after 
another, including witnesses we will hear from today, I don't 
know how--and I say this with total respect--I don't know how 
Japan is not on the non-compliant list. And added to that, 
because--again, the Goldman Act said to look back 1 calendar 
year.
    And added to that is the issue of a protocol which you 
reference in your testimony, which I have been pushing for at 
least 6 years. When I was in Japan I said a Hague ratification 
without a concurrent protocol or MOU, whatever we might want to 
call it, a bilateral agreement with Japan to resolve these 
existing cases, is like a double tragedy for the families. The 
door gets slammed in their face, because everything from Hague 
on is from that day a ratification forward, and they are thrown 
under the bus a second time and abandoned a second time.
    The pushback has been profound for years. No bilateral 
agreement. I am hoping that will be revisited as well, and we 
will get a bilateral agreement that will lead to returns and 
not rhetoric.
    Ambassador Jacobs. Let me assure you, sir, that we are not 
throwing the parents and the children and the pre-Convention 
cases under the bus. Everything is on the table with Japan. We 
had, for me, the highest level meeting that I have had there, 
and we stressed that the status quo on the pre-Convention cases 
is not acceptable, and that we need to find a way to resolve 
these cases.
    There was--and let me----
    Mr. Smith. But, again----
    Ambassador Jacobs [continuing]. Also mention we didn't give 
Japan a pass. We made a determination that we were going to 
judge Japan on--first, let me explain about the unresolved 
cases. We did the best we could, looking at the definitions in 
the law. I know that it was not satisfactory from all the 
comments that we have gotten, so we have gone back to capture 
the universe of the cases that exist in every country like 
Japan and like India.
    So that information will be posted within a week on our Web 
site, travel.state.gov, and we will be sure and send you the 
information in advance.
    Mr. Smith. But----
    Ambassador Jacobs. This report was the first effort to 
comply with the law. We understand that it was not satisfactory 
to many people, and we want to do a better job, present the 
best report that we can in the future. And if that means 
putting in more narrative and explaining things better or 
differently, that is our goal.
    We want your feedback. And if you--when you get this new 
information, and you still believe there are gaps, then you 
need to tell us, so that we can continue to talk about it and 
try to get you the kind of report that will be helpful and 
satisfactory and capture the entirety of the abduction issue 
and these cases. But we are not giving up on any means of 
reaching the kinds of conclusions that the parents want.
    Mr. Smith. I would respectfully submit that the future is 
now for these parents. Waiting----
    Ambassador Jacobs. I don't disagree.
    Mr. Smith [continuing]. Another year to do a report--
Japan--it is inexplicable how Japan is not on the list. Now, 
whether or not the U.S. Government imposes a sanction of any 
kind is left to the discretion of the Department, and what 
works is left to the chief executive.
    But getting the report right, I mean, after the last 
hearing I called it a whitewash, which I do believe it is. I 
mean, you go to the report and look on page 17, unresolved 
cases----
    Ambassador Jacobs. Look at the narrative.
    Mr. Smith [continuing]. Abduction, it is down to zero.
    Ambassador Jacobs. But look at the narrative.
    Mr. Smith. I read the narrative. But it is contradictory to 
the table that supposedly tells the whole story.
    Ambassador Jacobs. I understand that, and so you are going 
to get new data that will reflect all the cases, the entirety 
of the cases in Japan.
    Mr. Smith. I understand that. Now, will the new data that 
comes----
    Ambassador Jacobs. And Convention.
    Mr. Smith [continuing]. To Congress' way then lead to a new 
designation of pattern of non-compliance?
    Ambassador Jacobs. I don't know. It probably will not, but 
that doesn't mean that they are getting a pass. Can I tell you 
how upset they were with that report? It really got their 
attention----
    Mr. Smith. But there is still nobody----
    Ambassador Jacobs [continuing]. Like nothing else has.
    Mr. Smith [continuing]. No children coming home.
    Ambassador Jacobs. The combination of the law and the 
report really brought home to the Japanese Government that 
something needs to be done. And we are working on that, and 
nothing is off the table, including an MOU.
    Mr. Smith. I hear you say, again, Madam Secretary--Madam 
Ambassador, that----
    Ambassador Jacobs. I like the promotion. Thank you.
    Mr. Smith. After I pushed for 3 years to get the 
Trafficking Victims Protection Act, which had real and does 
have real sanctions--and we are late on that report, too, 
frankly. It is supposed to be June 1, I would note 
parenthetically, and a lot of us think it has to do with 
Malaysia. That is a whole other issue; it has to do with the 
TPP and a press conference that will be held this afternoon in 
a bipartisan way with Rosa DeLauro and others.
    But that said, we tried to make sure that the report was 
absolutely sacred in terms of its data. Israel was put on Tier 
3. South Korea, two allies with whom we are as close as it 
gets, and Israel had a huge trafficking problem, as did South 
Korea. South Korea, when they were on the sanctions list and 
were at risk of losing security aid, went overtime to pass a 
large number of important reform laws, as did Israel.
    Israel cracked down, particularly in Tel Aviv, on the 
brothels where a lot of women were being exploited and cruelly 
mistreated as trafficked women, and all of a sudden--and I 
remember meeting with the Ambassador. He came in with a 
compliance--the possibility of the sanctions really, once the 
report is done right, sharpens the mind. And they can be angry 
all they want about anything that is in the report, but if 
there is no possibility of a sanctions regime, like a sword of 
Damocles hanging over their head, they will not respond.
    And, again, nobody has come back. And what we are asking 
for is just complete and total honesty. You know, the Bush and 
certainly the Obama administration, Luis CdeBaca, who was the 
Ambassador-at-Large for trafficking, they made sure the report 
was right. There are always a couple of exceptions. But, 
frankly, they really made sure the report was right. Again, 
putting Israel and South Korea on there was proof positive.
    Japan has to be on that list, or else a year from now we 
are going to have the same--we will have four more hearings 
between now and then. We will hear from parents who are 
heartbroken. Paul Toland will tell his case, others will tell 
their case, and we will still have kids that are being held, 
and the Japanese Government, you know, will be non-compliant. 
It has got to be non-compliant.
    Ambassador Jacobs. But let me say that even if Japan is not 
listed as non-compliant doesn't mean that we are not pushing 
them to do what they need to do.
    Mr. Smith. But they got away with it this year.
    Ambassador Jacobs. Well, I----
    Mr. Smith. They did get away with it.
    Ambassador Jacobs [continuing]. I would disagree with you. 
But next year is next year. The report is a snapshot in time, 
and it doesn't mean that we forget about what we are doing from 
writing one report to the next report. And I don't--we are not 
prejudging any country. We are not trying to give any country a 
pass. We are working to do the best job that we can, and we 
will continue to push for the resolution.
    Mr. Smith. Madam Ambassador, when you testified on May 9, 
2013--and I did raise this with your staff when they were here 
several weeks ago--you had said that we need to reach an 
agreement with Japan--and we are talking about a bilateral 
agreement, and hopefully that is done immediately. I mean, what 
can be the hold up?
    But you also said--and it was very disturbing because it 
was like the harbinger of what we are dealing with right now--
``That the return of these children is important,'' you said--
and I am glad you said that--``but I don't think we are going 
to sanction Japan or threaten them with sanctions because I 
think that would be detrimental to our bilateral 
relationship.''
    Ambassador Jacobs. Okay.
    Mr. Smith. The bilateral relationship should be built on a 
two-way street, reciprocity, and these are American children 
abducted and left-behind American parents.
    Ambassador Jacobs. But what this report gives us instead 
are options for actions that we can take that I think are 
distinguishable from sanctions which have to be agreed to by 
the entire government. It isn't the Office of Children's Issues 
that decides on sanctioning a country.
    Mr. Smith. True.
    Ambassador Jacobs. It has to be--can I just finish, please? 
It has to be decided by the Department of State and then 
through the interagency process. But that doesn't mean that 
there aren't actions that you give us in the report that we can 
take, such as a demarche or an official statement or a public 
condemnation.
    Mr. Smith. Have they been demarched?
    Ambassador Jacobs. These are--yes, they have been 
demarched.
    Mr. Smith. And what is their response?
    Ambassador Jacobs. Their response was, ``Please give us 
some time to work this out.'' Look, you asked what the response 
was. That is the response.
    Mr. Smith. I know.
    Ambassador Jacobs. But we have put other options on the 
table, and we raised----
    Mr. Smith. The reason for this----
    Ambassador Jacobs [continuing]. We raised----
    Mr. Smith [continuing]. Follow-up hearing----
    Ambassador Jacobs [continuing]. We raised an MOU with them. 
We raised the idea of an MOU.
    Mr. Smith. And what did they say?
    Ambassador Jacobs. We need two people to negotiate on that. 
They haven't agreed to it yet, and we will continue to raise 
it.
    Mr. Smith. Okay. Who raised it, you?
    Ambassador Jacobs. I did. Yes.
    Mr. Smith. And they said no, or----
    Ambassador Jacobs. No. They did not say no. They said, ``It 
is something that we will consider.'' I hope that doesn't mean 
no, because we will continue to raise it.
    Mr. Smith. One of the points that Patricia Apy makes, which 
is a leading expert and was David Goldman's lead attorney, that 
I think is very compelling--and she underscores the impact that 
the report has on judges when they are ascertaining whether or 
not a child should travel with one parent to a place like 
Japan. They will look at this report. And if I were a judge 
sitting here with robes, I would say, ``Japan, zero unresolved 
cases.''
    Ambassador Jacobs. That is going to be----
    Mr. Smith. ``Everything is fine. You can go.''
    Ambassador Jacobs. Sir, we are revising that. They will get 
new information. And let me tell you, you know what the 
Japanese told us? That there have been fewer abductions to 
Japan since the law went into effect.
    Mr. Smith. That is good.
    Ambassador Jacobs. So I think that that is a positive.
    Mr. Smith. Can you tell us why it was--on page 17 you did 
put zero in?
    Ambassador Jacobs. We put in zero because we defined the 
law as a request for a return that was pending over 12 months, 
and there were very few direct requests for return to the 
proper judicial or administrative authority made by the 
parents. In most of the cases, parents have asked for access or 
custody, and the law that you wrote defines it as a return.
    Now, after receiving the criticism, we understand that we 
needed to include a greater universe of cases, and so the new 
data that you will get reflects all the cases that we know of 
in a country, whether it is pre-Convention or post-Convention.
    Mr. Smith. You know, the legislative history of the law--
and it took 5 years to be enacted, multiple hearings, floor 
debates, bipartisanship in a great way in a town where that has 
been less than evidenced in recent years, both House and Senate 
couldn't have been clearer, especially with the left-behind 
parents from Japan, that they all asked for the return of their 
children.
    They were encouraged, many of them, to go to an access 
mode, because they had not seen their children, but they are 
still pending on their return request. I couldn't have made 
that clearer. Every hearing I have had somebody left behind, a 
father or mother, from Japan testify. Just from that record 
alone would meet the non-compliant record of having made those 
requests.
    And I know your office knew about it. We have been to your 
office. We have met with them. We even had a rally and a march 
on the office once, and I joined them for that. During the 
David Goldman case it was filled with left-behind parents from 
Japan, Americans whose children were abducted to Japan. Please 
don't say that they have not gone through the proper channels 
of seeking access.
    One of the reasons why we put in language on DOD was that 
Captain Toland got bad advice from his JAG as to how to deal 
with it in Japan and which further hurt his case in reclaiming 
his daughter from the grandmother who wouldn't even allow a 
phone call.
    So, again, I would hope and I would respectfully ask, they 
need to be redesignated. There is nothing in the law that 
precludes you from, based on the evidence, and an admittance 
today, that you got it wrong by making zero unresolved cases, 
to now say that they do fit the criteria. They are a country 
that is non-compliant. And I do believe that will make the MOU 
work or there will be more ready to do that. Waiting a year is 
an eternity for these left-behind parents. An eternity.
    Ambassador Jacobs. I understand that, sir.
    Mr. Smith. Thank you.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, and thank you, Ambassador. I just 
want to be where Chairman Smith just left off. Would you 
describe for me the process by which you make the determination 
of a non-compliant country? I take it from the report there are 
22. There must be a standard that you follow or that the 
legislation establishes for what you conclude to be a non-
compliant country, or patterns of non-compliance.
    Ambassador Jacobs. We look at whether or not there is a 
central authority or a designated administrative authority that 
works on abduction cases. We look at judicial compliance, and 
we look at law enforcement compliance.
    Mr. Cicilline. But in addition to the structure that is in 
place, you also look at----
    Ambassador Jacobs. We look at----
    Mr. Cicilline [continuing]. The activities of----
    Ambassador Jacobs. We look at----
    Mr. Cicilline [continuing]. The abduction activities.
    Ambassador Jacobs [continuing]. What happens.
    Mr. Cicilline. Okay.
    Ambassador Jacobs. If we have a case and nothing ever 
happens, we send it to the central authority, they don't act on 
it, that is one thing. If they act on it, and they send it law 
enforcement but nothing happens with law enforcement, that is 
another black mark.
    If it does go from the central authority to the location of 
the child, and when the case goes to court, if there are long 
delays in the judicial process, or if the judges never order a 
return in certain countries, that would be judicial non-
compliance. We follow each case.
    Mr. Cicilline. And so then you are able to make a 
determination about the countries that are the most serious 
violators, that have the greatest both child abduction 
activities and then failure to respond to abduction demands for 
return.
    Ambassador Jacobs. Yes.
    Mr. Cicilline. And is that the list of the 22 that you have 
identified?
    Ambassador Jacobs. Yes. Those three criteria are the 
criteria that we used to determine if countries were non-
compliant.
    Mr. Cicilline. And within that designation, do you do 
anything additionally to determine, of those 22, who is the 
worst violator, which country? Are they ranked in any way?
    Ambassador Jacobs. They are not ranked. They are all 
violators.
    Mr. Cicilline. But do you have an assessment of who the 
kind of worst offenders are among that list?
    Ambassador Jacobs. Yes.
    Mr. Cicilline. And who are they?
    Ambassador Jacobs. They would be Brazil, India, Japan. 
Those are the worst offenders.
    Mr. Cicilline. Well, Japan is not on the list.
    Ambassador Jacobs. But Japan pre-Hague. Pre-Hague. India we 
never get any cooperation. We do get cooperation from the 
Japanese. We don't get the returns, and I know that is what we 
want. But they do cooperate with us. In India, we get nothing. 
But now we are.
    Since the law passed, there is a lot more activity in India 
working toward joining the Convention and implementing it. The 
discussions that we had were incredibly positive. Our 
Ambassador there, Richard Verma, is energized. He will be 
having a meeting in the next week or so with a number of 
ministers, as well as Ambassadors or High Commissioners from 
the United Kingdom and Canada, and Supreme Court Justices in 
India, to work on Hague compliance, because they get it and the 
law really was an impetus for them to get moving.
    Mr. Cicilline. Do we need to, in your judgment, need to 
modify any language in the existing statute, or is it simply a 
determination of the Department if in fact the intention is to 
get as much information and to be sure that the activities, 
using Japan as an example, be fully reflected, because you can 
both indicate the gravity of the problem, the pre-Convention 
challenges, and also the progress that you say is being made 
post-Convention.
    But is there any impediment to you including that in the 
report, or is it necessary for us to modify the language of the 
existing statute?
    Ambassador Jacobs. There is no impediment to us doing the 
things that you suggest, and we will do them. We were working 
under a very compressed timeframe with a complicated piece of 
legislation, trying to identify every bit of data that was 
required. And we recognize that there are gaps, and we want to 
correct them, and we can do a different kind of report that has 
more like the previous reports that had a lot of narrative. We 
can do narrative on the biggest offenders, and really identify 
in each case what the issues are. We are very happy to do that.
    I mean, I think we have the same goal. We want these kids 
to come home. I mean, that is our goal, it is your goal, and we 
just need to do this together. I mean, I don't see that we are 
at odds in this.
    Mr. Cicilline. No, no, no. I think you are right that the--
I think at least the experience that I have seen in the human 
rights area is the more this information is shared and becomes 
widely known, the greater likelihood that countries will take 
action to respond so they are no longer on the list.
    Ambassador Jacobs. Yes.
    Mr. Cicilline. And I would say just as a personal 
observation, to be the parent of a child who has been abducted 
to Japan, and look at a report that has a zero in it, is 
personally probably incredibly painful.
    Ambassador Jacobs. And I understand that, and we are going 
to fix it.
    Mr. Cicilline. Thank you. The next thing I would just to 
ask you, with respect to the designation of the recommendations 
in terms of activity, the recommendations to improve resolution 
of cases, and they are A through F, one of them that you 
mentioned is bilateral meetings.
    And I think you mentioned specifically that that was 
happening in Japan, but it looks like that was not actually 
indicated. In Japan, it says A, B, and C. I don't know if that 
is just----
    Ambassador Jacobs. I don't remember what the----
    Mr. Cicilline. But, I mean----
    Ambassador Jacobs. Tell me what those are. Let me tell you 
what we have done in Japan. Maybe that would be more helpful.
    Mr. Cicilline. Well, no, I am happy to, but just so you 
know what I am speaking about. You have a Table 3----
    Ambassador Jacobs. Yes.
    Mr. Cicilline [continuing]. Which says Recommendations to 
Improve Resolution of Cases in Countries, and there are A 
through F as keys to what recommendations. And then you have a 
list of countries----
    Ambassador Jacobs. Right.
    Mr. Cicilline [continuing]. In which you designate what 
your recommendations are. And as it relates specifically to 
Japan, it is A, B, and C. D is where it says Department 
officials hold bilateral meetings with government officials. So 
it would seem to me that D is----
    Ambassador Jacobs. Okay. So we did it anyhow.
    Mr. Cicilline. Okay. Well, no, I mean, I think it is 
important that----
    Ambassador Jacobs. Yes. No. We should put it----
    Mr. Cicilline. Okay.
    Ambassador Jacobs. We will fix that, too. Absolutely.
    Mr. Cicilline. Okay.
    Ambassador Jacobs. Yes. Because I was just there.
    Mr. Cicilline. Okay.
    Ambassador Jacobs. I was just there, and we spent a whole 
day in meetings talking about this.
    Mr. Cicilline. Great.
    Ambassador Jacobs. And talking about it at the Fourth of 
July party.
    Mr. Cicilline. No. And I think it is helpful to--I know you 
are doing----
    Ambassador Jacobs. You are right.
    Mr. Cicilline [continuing]. An enormous amount of work, and 
it is important that that be shared, so people----
    Ambassador Jacobs. Yes.
    Mr. Cicilline [continuing]. Have confidence that that is--
--
    Ambassador Jacobs. We do that. I mean, we do--believe me, 
we do everything that we can. And maybe we need to make more 
public statements, and that is something that we will seriously 
consider.
    Mr. Cicilline. I would urge you to do that.
    Ambassador Jacobs. I think there is nothing wrong with 
public statements saying we need more cooperation.
    Mr. Cicilline. And, Madam Ambassador, just now to turn to 
another country. According to the Center for Missing and 
Exploited Children, there are 53 open cases of a U.S. child 
abduction in India, including 26 that have been pending for 
more than 5 years.
    In the wake of obviously the Goldman Act, it has been 
indicated that the U.S. is conducting bilateral discussions on 
child abduction cases. But the progress and content of them 
have not been shared with parents or with members of this 
committee. I am just wondering whether you can talk a little 
bit about what is happening in India, generally, what the----
    Ambassador Jacobs. Absolutely.
    Mr. Cicilline [continuing]. Direction of those 
conversations are and----
    Ambassador Jacobs. I was just there in May. We had meetings 
with ministers and with the first secretaries of the 
ministries. They have domestic legislation that is now 
circulating in the cabinet for India to accede to the Hague 
Convention, which I think will be very helpful.
    In addition, Indian courts have now ordered returns of 
children. Not to the United States, but they did order returns 
to India. We have a very close relationship with two of the 
Justices, and they have offered to facilitate meetings, to be 
champions for this legislation, and we have the same commitment 
from the ministries.
    Our Ambassador is energized. He had a lunch where we had 
lawyers who are also willing to do the same thing. So we are 
sort of attacking it from many angles, and we are hoping for 
success. We were just at a meeting in Macau that was sponsored 
by China, Macau, and the Hague Permanent Bureau. All of the 
countries that we are concerned with were there, and they all 
heard the same message: You need to take action now. And I was 
very fortunate. I had the first word at the conference, and I 
had the last word.
    Mr. Cicilline. Thank you. And my final point would be, 
Madam Ambassador, thank you for the work you are doing.
    Ambassador Jacobs. Thank you.
    Mr. Cicilline. And if you think there are ways that we can 
improve or strengthen this existing statute, which would make 
this work more effective and produce greater results, I know we 
are all anxious to hear that. But one thing I would urge you to 
consider, that in the most egregious cases where we have real 
patterns in countries, I think strong public statements and 
bringing that to the attention of the world will be very 
valuable.
    Ambassador Jacobs. And if I could suggest when you all 
travel on codels, when you are going to countries that we are 
mutually concerned about, that you raise it in your 
conversations with legislators and with ministers, so that they 
understand that this is the United States of America's concern, 
not just the State Department or just the Congress.
    Mr. Cicilline. Thank you very much.
    Thank you, Mr. Chairman. I yield back.
    Mr. Smith. Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    Madam Ambassador, welcome back.
    Ambassador Jacobs. Thank you, sir.
    Mr. Meadows. And so I am trying to piece together some of 
the things you have talked about. So is there or is there not a 
reporting mechanism to report all open unresolved cases? Is 
there a reporting mechanism?
    Ambassador Jacobs. Apparently, there is. We took a more 
narrow definition of the law.
    Mr. Meadows. Okay. So, yes, you said that earlier. So let 
me ask you, who took the narrow definition?
    Ambassador Jacobs. The Department of State.
    Mr. Meadows. Okay. So Congress passed a law. It is up to 
you to implement that law. Is that correct?
    Ambassador Jacobs. Well, first, we had to interpret it.
    Mr. Meadows. Rulemaking. Right. But I guess the concern 
that I have, Madam Ambassador, is you have been here before.
    Ambassador Jacobs. Yes, I have, sir.
    Mr. Meadows. And we have had parents every time here 
before, and you got a little bit of a honeymoon phase the last 
time that you were before here. And by ``honeymoon phase'' I 
mean it was a new law, it was about to be implemented. And as 
we got this, you were here, and you were saying, ``Well, you 
know, we are going to make great progress.'' So now you are 
back with us.
    My concern is is, if the State Department made that 
interpretation, and it was ambiguous, how much consultation did 
you have with either the author of the bill, with folks that 
actually did the debate? How much of that actually took place?
    Ambassador Jacobs. I don't know. I was not----
    Mr. Meadows. May I suggest none?
    Ambassador Jacobs. I don't know if it was none, so I can't 
say that. What I can say is we did the best job we could on a 
compressed timeline.
    Mr. Meadows. Well, I----
    Ambassador Jacobs. Okay. We are going to fix it. You can 
keep beating me up about this, but, you know----
    Mr. Meadows. Well, I am not beating you up. Here is what--
let me tell you what I am doing. I don't have a child that was 
abducted, but I represent people who do.
    Ambassador Jacobs. And so do we.
    Mr. Meadows. And so it is imperative for us to get on the 
same sheet of music.
    Ambassador Jacobs. And we are there now.
    Mr. Meadows. But that is what you said in March when you 
came. You said ``Well, you know, we are going to work this 
together, and we are going to work toward this.'' So when will 
we have an accurate report?
    Ambassador Jacobs. I believe within a week.
    Mr. Meadows. Okay. So within a week, you will report back 
to Chairman Smith and this subcommittee----
    Ambassador Jacobs. There will be----
    Mr. Meadows [continuing]. And you will have----
    Ambassador Jacobs [continuing]. No----
    Mr. Meadows [continuing]. You will have----
    Ambassador Jacobs. There will be no zeroes for Japan or 
India or some of those other countries, unless it is a true 
zero.
    Mr. Meadows. Okay. Thank you. How do we help you make this 
more visible? You mentioned mentioning to Ambassadors on 
codels, and let me tell you what my concern is because I am 
very involved with a number of Ambassadors, as Mr. Cicilline 
is, and human rights is something that is bipartisan. It is one 
of those few things where I will have Mr. Cicilline's back. He 
will have my back. And when we come to this, trying to do what 
is right, whether it is on this issue or other human rights 
issues, it is something that we can all agree on.
    I guess the concern that I have is as I talk to those in 
the diplomatic corps and those that are out there, this is not 
an issue that is frequently talked about. And I guess my 
concern is, how do we do this in a polite, kind, but persistent 
and tenacious way? How do we help you help these parents?
    Ambassador Jacobs. By being tenacious. I mean, that is what 
we have to do. We have made this, and I think that two 
Secretaries, Secretary Clinton and Secretary Kerry, have made 
children's issues a prominent part of what they really care 
about, one of their baseline concerns. And because of that, we 
get a lot of attention to the issue, more than in the past.
    And with the new law, it really has energized many 
Ambassadors. I write to Ambassador Kennedy; she answers me 
immediately. She has three talking points on abductions that 
she uses in every meeting. Ambassador Varma in India, 
Ambassador Ayalde in Brazil, exactly the same thing. They have 
the same points that they use over and over.
    It is always part of what they talk to when they meet with 
the Foreign Minister or the President's chief of staff or 
whatever high-level official in that country is at the meeting. 
And we need you to reinforce that message, to keep saying, 
``This is really important.''
    Mr. Meadows. So if we were to send them a YouTube of this 
particular hearing where they have got Democrats and 
Republicans that say that this is an important issue----
    Ambassador Jacobs. I love it.
    Mr. Meadows. You love it?
    Ambassador Jacobs. Yes.
    Mr. Meadows. All right.
    Ambassador Jacobs. Sure. Why not?
    Mr. Meadows. Well, here I would ask your help on something. 
Can you assure this subcommittee that, if there is ambiguity in 
the future, that you will check with us or have your counsel 
check with us, so that what we don't run into is the next 
hearing that we have, is that we have got these glaring 
omissions.
    And I call them omissions; they may not have been out of 
commission, but they are omissions that indeed give the 
appearance that we are trying to protect certain individuals or 
give--and I am not saying that you did that, Ambassador.
    Ambassador Jacobs. Thank you. I appreciate that.
    Mr. Meadows. I am not making that--I am saying it gives the 
appearance.
    Ambassador Jacobs. You have----
    Mr. Meadows. And so do we have your commitment----
    Ambassador Jacobs. Yes.
    Mr. Meadows [continuing]. That if there is ambiguity at 
all----
    Ambassador Jacobs. Please, sir.
    Mr. Meadows [continuing]. That they will get on the phone--
--
    Ambassador Jacobs. Absolutely.
    Mr. Meadows [continuing]. With the chiefs of staff.
    Ambassador Jacobs. Absolutely.
    Mr. Meadows. Okay.
    Ambassador Jacobs. In person.
    Mr. Meadows. Very good.
    Ambassador Jacobs. Not on the phone.
    Mr. Meadows. Okay.
    Ambassador Jacobs. Ambiguities are better resolved in 
person.
    Mr. Meadows. All right. So let me ask you my final two 
questions.
    Ambassador Jacobs. Okay.
    Mr. Meadows. If you were to give your agency a grade today, 
what would that grade be?
    Ambassador Jacobs. A B-plus.
    Mr. Meadows. Okay. All right. So I am concerned with that.
    Ambassador Jacobs. That is okay. And I am a hard grader.
    Mr. Meadows. Well, but we are not grading on a curve. And 
so my concern is is for the vast majority of parents. Their 
grade would be much closer to a D or an F. And so how do we 
take their grade for you and your grade for you and work 
together where we can make it where it is a B-plus to an A? How 
can we do that?
    Ambassador Jacobs. We know that without a return we are not 
satisfying the parents. I understand that. But it truly is not 
from lack of effort. Our diplomatic engagement is to persuade 
countries, whether through actions, but through words, and 
through meetings, and through education, that the return of 
abducted children is in their best interest. It is in the 
child's interest. It is in the left-behind parent's interest. 
And it will make their relationship with the United States 
better.
    And that is my job, and that is what I and everybody that I 
work with, the 80 people in----
    Mr. Meadows. I do believe that.
    Ambassador Jacobs [continuing]. That work on abductions----
    Mr. Meadows. I do believe that.
    Ambassador Jacobs [continuing]. This is the goal. And maybe 
we get a B-plus on effort and work ethic and heart, and maybe 
we do get a D because we don't have as many returns as we want. 
But I think there needs to be some recognition of the amount of 
work that we put into this, the effort and the heartbreak.
    This is not an easy job for anybody in children's issues. 
These get to the core of who you are as a human being trying to 
resolve these questions. And it is easy to say we get a D 
because the kids don't come back, but you need to think about 
all the effort and the work that we put into trying to get the 
children returned. And I am sorry if we fall short. I know 
that----
    Mr. Meadows. I will close by saying that I won't speak for 
my two colleagues here, but I would imagine that the three of 
us are willing to drop whatever we have pressing as a priority 
to see us engage. If you need our help, not only will we be 
willing to help, but we will drop other things to make sure 
that this becomes a priority, because one of the greatest 
quotes that I enjoy is, it says no matter how beautiful the 
strategy, we must occasionally look at the results. And so 
that--we want to help you with those results.
    And I will yield back.
    Ambassador Jacobs. I am going to take you up on that.
    Mr. Smith. Let me just, Madam Ambassador, this false sense 
that there is any ambiguity in the definitions. We wrote those 
definitions, and worked with legislative counsel, with a 
large--we asked for your input. It couldn't be clearer what a 
pattern of non-compliance means, and it says--and it is all 
spelled out in riveting detail in the legislation.
    And that persistent failure is if 30 percent or more of the 
total abduction cases of such a country are unresolved 
abduction cases. And it has other criteria as well, but that 
stands as one; one or more of the following criteria is enough 
to trigger a pattern of non-compliance designation.
    On the whole issue of unresolved abduction cases, in a like 
manner we lay that out. I keep reading this and reading it. The 
last time I read it to your staff when they testified and said, 
``Where is the ambiguity?'' There isn't any. My concern is that 
Japan was put--I mean, when you talk about grading, maybe some 
of the countries where it was easier to give a pattern of non-
compliance, but Japan, with all due respect, you get an F for 
that one. And, thankfully, you will at least change the 
unresolved cases category.
    But how that doesn't then trigger the next shoe dropping, 
that they are now in the designation of pattern of non-
compliance, it is bewildering beyond words, because that is 
what happens when you have so many cases. The definition is 
clear, not ambiguous. And, again, we had both the Senate and 
the House, my staff, the Judiciary staff, the Senators' staff, 
everybody went over these definitions with such attention, to 
get it right. And then Japan mysteriously falls off.
    You know, we have some of our witnesses, and I do hope you 
will stay----
    Ambassador Jacobs. Unfortunately, I have another meeting 
that I cannot avoid.
    Mr. Smith. Please take their statements if you would.
    Ambassador Jacobs. I have seen--I had talked to a lot of 
the parents before.
    Mr. Smith. Randy Collins makes a very important point. I 
would like this committee to insist that OCI and the State 
Department be far more transparent with Congress and with 
victimized parents. ``We deserve answers,'' he says. ``Simply 
telling this committee that they are raising our cases means 
nothing. What are they saying? Who are they saying it to? We 
have suffered years of secrecy from State regarding our 
abducted children. Are they demanding the return of our 
children or simply begging?'' as he point out.
    I have asked that question a number of times. One time at a 
press conference over at the grassy triangle. I am a great 
Seinfeld fan. I love Seinfeld. I have seen every episode 15 
times. One of them was a case of the file, the Pensky file. 
George Costanza has this file, a Pensky file, and he puts it in 
his desk. Pensky himself comes in and George says that he is 
working Pensy's file. And nobody knows what they are doing.
    And I raise this again with respect--when you get a case 
that is pending before you, you have a case officer, are they 
fighting hard? And does it trickle up, hopefully put up, to the 
levels of the political side to say, ``This stuff means 
something to us. We want this resolved.'' Because my feeling 
has been, and I saw it with David Goldman, David Goldman went 
for 5 years with his case, won in some of the courts, lost in 
others.
    But it was always the wonderful Consular Affairs people who 
tried to do welfare and whereabouts. They love David. They love 
everything about trying to resolve the case. But it never got 
to the point where the political side said, ``This is something 
the United States of America cares about.'' And that is where 
there is this total disconnect. Again, when you get it wrong in 
the report, it makes it even harder. What do you say?
    We now hear--and I asked Secretary Kerry when he testified 
when President Obama and when Secretary Kerry went there, did 
they raise individual cases? We have learned in human rights 
work you raise individual cases. You don't say generically, 
``We are all for ending parental child abduction.'' And he said 
that they raised it at every level.
    Are these cases brought? The ones who will testify, the 
left-behind parents today, does somebody say, ``This means 
something to us. Here are the details. Let us resolve this.'' 
That is the problem. And with Japan, even when I was over 
there, I got the sense that there was empathy, but it was not a 
political priority. Everything else, Status of Forces 
agreements, everything else under the sun, put this on page 5 
as a footnote.
    Ambassador Jacobs. It is a political priority now.
    Mr. Smith. Okay. If you could, again, revisit. And I don't 
know how you update the unresolved cases and not put Japan on 
it.
    Ambassador Jacobs. You are going to see----
    Mr. Smith. It ought to be on the list. And what you do 
sanctions-wise is all up to you, of course with----
    Ambassador Jacobs. Actions. Actions, sir.
    Mr. Smith [continuing]. Reporting to Congress about what 
you do or don't do.
    Ambassador Jacobs. Actions.
    Mr. Smith. We want actions.
    Ambassador Jacobs. Actions.
    Mr. Smith. But we need the designation to be accurate and 
clear. Otherwise, we will be here a year from now talking about 
the same thing.
    Okay. But F for Japan so far. I would love for all of us to 
put that as an A.
    Mr. Cicilline. Yes. I just want to follow up on Congressman 
Meadows' comment. I think it is understandable that every 
parent who has a child who has been abducted who is not yet 
returned would give everybody an F, Congress, every agency, 
because your child is not returned.
    Ambassador Jacobs. Right.
    Mr. Cicilline. And I want to just take a moment to 
acknowledge your work, Madam Ambassador, and the work of the 
dedicated professionals who are doing this work. And the 
frustration that everyone has with individual cases should not 
in any way be read to not, at least from my perspective, 
undermine your deep commitment, your long record, and the 
really hard work that others in your department and agency are 
doing. I want to be very clear about that.
    I do think that the value of the report--and I really 
appreciate your willingness to go back and both supplement it 
and revise it and correct it, the value of that report in this 
work cannot be overstated, because we can use it in our codel 
conversations. We can use it as a public statement. We can do a 
lot with it. And so the accuracy and the transparency of that 
is really critical, because it loses its potency as an 
effective tool if it doesn't include places like Japan, et 
cetera.
    So it is not that I think any of us are interested in 
giving it a grade, the report, just because we are fastidious 
folks. But it is because its usefulness----
    Ambassador Jacobs. I agree.
    Mr. Cicilline [continuing]. In terms of ultimately bringing 
children back home is dependent on its completeness and 
accuracy. And I look forward to the work that you are going to 
do to provide us----
    Ambassador Jacobs. Thank you.
    Mr. Cicilline [continuing]. With that tool.
    Ambassador Jacobs. Appreciate your comments. Thank you.
    Mr. Smith. Thank you, Madam Ambassador.
    Ambassador Jacobs. Thank you, sir.
    Mr. Smith. And I look forward to that designation of Japan. 
Sure hope you do it.
    I would like to now welcome our second panel, beginning 
with Patricia Apy, who is a partner in the law firm of Paras, 
Apy & Reiss, who specializes in complex family litigation, 
particularly international interstate child custody litigation. 
Her qualifications for testifying are impressive and extensive. 
She has litigated and been qualified as an expert witness in 
connection with family disputes throughout the world.
    Ms. Apy frequently consults and is regularly qualified as 
an expert on family dispute resolution in non-Hague countries 
in risk factors for child abduction. She was also one of the 
lead attorneys, as I said, the principal attorney for David 
Goldman and provided expert advice and counsel in that long and 
arduous case.
    We will then hear from Mr. Randy Collins, who is the father 
of Keisuke Collins, who was abducted to Japan in June 2008 by 
the non-custodial mother. He is also the managing director of 
Bring Abducted Children Home, an NGO working for the return of 
children abducted to Japan, and for the children's access to 
both parents.
    As a resident of California, Mr. Collins inspired and 
helped write, with then-California State Senator, now 
Congresswoman Walters, SB 1206, also known as Keisuke's Law, 
which was named after his son and helps to deter future 
parental child abductions. The law was unanimously passed in 
the California Legislature in 2012.
    We will then hear from Ms. Kelly Rutherford, who is the 
mother of two young children, Helena and Hermes, now 6 and 8 
years old, who were sent by a U.S. court 3 years ago to live 
with their father abroad solely because their father alleged he 
could not enter the U.S.
    Ms. Rutherford has since traveled to Monaco 70 times--70 
times--to see her children and has had to declare bankruptcy. 
When the children's father began denying her access to their 
children this year, she again had to go to court in Monaco 
while continuing litigation in the U.S. Ms. Rutherford founded 
the Children's Justice Campaign to help other parents avoid the 
international legal nightmare she is now enduring.
    We will then hear from Dr. Samina Rahman, who is currently 
a resident in internal medicine at the Montefiore Medical 
Center in New York City. She studied medicine at Gulf Medical 
University in the United Arab Emirates, and moved to the U.S. 
in July 2012, where she was joined by her son and husband.
    However, as she will relay, her husband became verbally and 
physically abusive of her, as well as threatening to her son, 
culminating in his covert abduction of their son to India in 
2013, a place the family had never lived. She is the sole 
custodian of her son under U.S. law, but has been able to speak 
to her son just 12 times in 2 years while India very slowly 
takes steps to consider her case.
    And then we will hear from Diane McGee, who is the mother 
of several children who have been held by her American husband 
in Japan since 2012. Ms. McGee and her husband were married in 
New York, and each of their four children were born in the 
United States. The McGees temporarily relocated to Japan in 
2011 when Mr. McGee was offered a job there, but maintained 
their home in New Jersey.
    Ms. McGee's husband reneged on his promise to return with 
the children to New Jersey and began divorce proceedings in 
Japan in 2012. Ms. McGee returned to the U.S. with the youngest 
child in December 2012, and has suffered parental alienation 
from the older children and poverty while fighting for their 
return.
    Ms. Apy.
    We are joined by the distinguished Chairman of the full 
Foreign Affairs Committee, Ed Royce.
    Mr. Royce. Thank you, Mr. Chairman. I will just take a 
moment here and thank you for your years of advocacy on this 
issue. It is good to see Ambassador Jacobs here, and I hope, 
really, that this hearing will help improve the reporting that 
this new law requires from her office. And, in particular, 
accurate data on unresolved abduction cases is essential to 
enabling American parents and judges to make informed decisions 
about whether to allow children to travel to particular 
countries in order to avoid new abduction cases.
    I also want to welcome all of our left-behind parent 
witnesses, including Kelly Rutherford, whose case I have raised 
previously with the State Department. We cannot help but feel 
the trauma that all of you endure while separated from your 
daughters and your sons. And, Kelly, all of us here are so 
pleased that you have been reunited with your children for the 
summer. We continue to hope for a permanent resolution for your 
family.
    Before yielding back, I also would like to submit for the 
record a written statement by Sarah Kurtz, a resident of Los 
Angeles, who is enduring a painful separation from her two 
children who are currently in Sweden.
    And I am grateful to the subcommittee, again, but also to 
the State Department, and our brave witnesses, for coming 
together today to shine a very personal light on these very 
tragic separations which must be mended.
    Thank you again, Mr. Chairman.
    Mr. Smith. Thank you, Chairman Royce. And thank you for 
your work on the Goldman Act, and as full committee chairman, 
for making this a priority of our full committee. Thank you.
    Mr. Royce. Well, what is amazing is 1,000 new cases a year. 
It demands our action. So thank you, Chairman.
    Mr. Smith. We are also joined by a good friend of mine from 
the State of New Jersey, Leonard Lance.
    Mr. Lance. Thank you, Mr. Chairman. Certainly, this is a 
very important issue, and I commend your leadership on this, 
your leadership over many years. And among the panelists, I 
welcome Ms. McGee , who is from the part of New Jersey that I 
have the honor of representing. This is an issue that demands 
the attention of the full Congress of the United States.
    Thank you, Mr. Chairman.

  STATEMENT OF MS. PATRICIA APY, PARTNER, PARAS, APY & REISS, 
                              P.C.

    Ms. Apy. It is my privilege to return to discuss ICAPRA and 
to discuss the reporting requirements. My purpose today is to 
review and articulate, first of all, the importance of the 
report, the current deficiencies in the existing report, and 
the necessity to address those deficiencies as a matter of 
urgency in order to aggressively combat international child 
abduction by encouraging a report which will become the 
authoritative source of objective evidence to assess obstacles 
to recovery of all children.
    The focus of this act is two-fold. The first is prevention, 
which is of course one of the most important aspects of 
preventing the scourge of child abduction. This is the only 
report that is internationally issued with regard to accurate 
numbers involving child abduction.
    Secretary General Bernasconi at the Hague has at least 
twice formally indicated that the Hague doesn't have the 
resources, does not have accurate information, is not provided 
information by countries. So much like the Trafficking in 
Persons Report, this is going to be not just the report that is 
looked at for prevention purposes by those in the United States 
of America, by those of you who legislate, by the diplomats who 
are addressing these issues, but of course by American judges, 
by American lawyers, by parents, in making determinations with 
respect to the resolution of their international custody 
agreements.
    If you don't have accurate information, then you don't know 
that there is a risk. In my written remarks, I have outlined 
the way that those of us who do this work assess the risk of 
abduction. And it is a matrix, and I have talked about this 
before before this subcommittee. It is a matrix of the 
individual attributes of the litigants and the obstacles to 
recovery.
    And the way that the obstacles to recovery are assessed is 
by looking at the objective information regarding whether or 
not there is a likelihood that a country is going to return a 
child who has been wrongfully removed or retained.
    Now, I listened carefully to Ambassador Jacobs, and I was 
concerned in that one of the things when you, I believe it was 
Mr. Cicilline, who asked about the non-compliance process and 
that definition. And the Ambassador returned to the compliance 
assessment that preceded the current law.
    What used to happen--and, again, this is more definitively 
addressed in my written remarks, what used to happen is the 
State Department would subjectively review, as she recounted, 
the judicial performance, law enforcement performance, and 
whether or not there is a central authority. That is no longer 
the way, or at least it is not the exclusive way, under the law 
that we are looking, in terms of oversight today.
    And the point was that it was too subjective a mechanism to 
enable judges or lawyers or anyone else to accurately tell 
whether or not a country was or was not in compliance. So the 
new law made the requirement to be that of objective numbers. 
Tell us how many cases there are. Tell us how long they have 
been there.
    Give us the objective criteria, so that anyone looking at 
the report, not just those who are perhaps on the telephone--
and we have heard about transparency--anyone can pick up the 
report, including a judge, including a diplomat, including a 
legislator, and know whether or not there is a problem.
    I recounted in my written remarks two cases, focusing on 
two particular countries. I did that because I could testify 
about specific cases that were not represented in the report. 
The United Arab Emirates is a country with which we have great 
diplomatic relationships. They are our partners in fighting 
terrorism in the region. I work with them consistently, and it 
is reported that there are no pending cases.
    There is no question that there is a pending case. There is 
no question that there is a case in which there have been 
criminal indictments issued by the United States Attorney for 
the return of Gabrielle Dahm. There is no explanation provided 
for why that case is not reflected.
    The other issue I would like to point out--and, again, my 
written remarks go into more detail, but--and we have been 
talking about Japan. Let me limit my remarks to Hague cases, 
because the response that the Ambassador gave was that the 
reason for the designation of no cases had to do with the pre-
Convention cases.
    Presume for the moment that that is the case. Let me 
address the cases that are in being since the Hague has been 
passed, many of which involve parents desperate, who have been 
willing to forego the return applications in favor of access 
applications. The access applications--first of all, in many 
cases, the Japanese insisted that those return applications be 
withdrawn if they were going to work the access cases. Let us 
begin with that.
    You have no choice. You want to see your child; this is the 
way. There has been no case under the Hague in which there has 
been a judicial submission resulting in any type of access 
whatsoever. Twenty-nine cases are listed as having been delayed 
in some way as if these parents who have been working day and 
night somehow delayed the prosecution of their cases.
    They haven't been worked, and yet the number of cases is 
zero. Using not the test that was testified to by Ambassador 
Jacobs, but using the test in this act, there is no question 
that Japan is non-compliant. No question. And, in fact, the 
narrative does nothing but create a question.
    If I am before a judge talking about someone going to Japan 
for vacation, and the judge asks me, ``Is Japan compliant?'' I 
have to say yes. I have to say yes. That is what the 
information provided by what the authoritative--and this is 
evidential for those of us who are lawyers--source in the world 
says.
    So the very first thing that I would say is that all of 
this act is dependent upon the report. If the report isn't 
right, the rest of the remedies, the way it is treated 
diplomatically, the way it is treated in the Embassies, the way 
it is treated at the borders, falls apart.
    Those are my preliminary remarks, and I am prepared to 
address any questions that anyone may have with respect to the 
specifics of either the issues that have been raised or 
testimony.
    I would also mention, there was a question I believe by Mr. 
Meadows with respect to what type of actions were taken to go 
through these definitions. And I am speaking on behalf of 
myself, but I am a member of the American Bar Association's 
Family Law Section, and have been for many years, and I am 
member of course of the International Academy of Matrimonial 
Lawyers. Neither group that I know of was consulted.
    I know our working groups on international law were not 
consulted, and have worked on these issues day and night, as 
part of our normal professional practices, to walk through why, 
for example, you would never remove a custody application in a 
non-Hague case. Please understand, there is no ability to seek 
the return of a child in a non-Hague case if you do not have 
the right to determine the child's place of residence. It is 
the only way to seek the remedy.
    To exclude those cases without any explanation is simply to 
lower the numbers. And, again, I heard the Ambassador talk 
about the revision of the report as there having been mistakes. 
I am hoping that that is genuinely the motivation for lowering 
those numbers as opposed to being forced to address certain of 
the actions. And, again, there is tremendous discretion in the 
act.
    But the part that I am concerned about is there seems to be 
a lack of understanding of how important these numbers are 
outside of just the acts that are associated with the law. It 
is important in the way that NGOs, in the way that those of us 
who deal with human rights are able to have discourse with 
accurate, credible evidence. And the lack of concern about 
getting these numbers right before the report was issued is 
stunning to me.
    [The prepared statement of Ms. Apy follows:]
  
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Ms. Apy, thank you very much.
    Before we go into Mr. Collins, let me welcome Sheila 
Jackson Lee, the gentlelady from Texas.
    Ms. Jackson Lee. Mr. Chairman, let me thank you, and to the 
chairman of the full committee, ranking member, and all of the 
witnesses, I will take just a moment to say that I am committed 
to this issue with every ounce of my abilities. I have been 
appalled at some of the stories, even in spite of this bill 
that we worked so hard to pass.
    And I think this hearing with Chairman Smith, who has 
listened to stories along with me, and let me welcome Ms. 
Rutherford and the other witnesses who have painfully 
indicated, that this is not about paper or legislative 
proudness or the fact that a good bill is trying to do a good 
thing. It is about the passion and love that a parent has for 
their children and one where they deserve to be able to express 
that love and affection.
    I would just yield back, Mr. Chairman, and say that however 
we can make the effective tool that the State Department uses 
to be an effective tool, I think that is what our challenge 
should be. American citizens should be able to look to their 
government for relief, even in spite of some of the unusual 
procedures of our foreign neighbors.
    And, with that, let me yield back and commit myself to 
working on this issue continuously.
    Thank you.
    Mr. Smith. Thank you.
    Mr. Collins.

   STATEMENT OF MR. RANDY COLLINS, MANAGING DIRECTOR, BRING 
   ABDUCTED CHILDREN HOME (FATHER OF CHILD ABDUCTED TO JAPAN)

    Mr. Collins. Chairman Smith, Chairman Royce, and committee 
members, thank you for the opportunity to share my story 
regarding international parental abduction to Japan. Reiko 
Nakata Greenberg and I were married on September 1, 2000, and 
on 03/03/03 at 3:03 p.m., my first and only child Keisuke 
Christian Collins was born in Orange, California.
    In March 2008, we started the process of a divorce, and I 
needed to get my financial records together. I found monthly 
checks written by Reiko to her Japan Airlines credit card for 
almost 2 years. Through these cash advances on her personal 
credit card, and withdrawals from our home equity line, she 
secretly was able to build a nest egg for herself of over 
$220,000.
    With this new evidence, I went to court in 2008 to stop 
Reiko from taking Keisuke to Japan for the summer. The judge 
ruled ``Minor child not to be removed from the County of 
Orange, State of California, or the United States of America, 
and turn over the minor's passports to the Japanese Embassy 
within 24 hours.''
    I relayed the court's ruling to the Japanese Embassy in Los 
Angeles that afternoon. They replied, ``We don't care about 
your court orders. We won't take the passports. They are 
Japanese citizens, and they can do what they want.'' I said my 
son was born and raised in the United States and is a U.S. 
citizen. He said, ``I don't care.''
    Two days later was Father's Day. I picked up Keisuke in the 
morning for church. We had a Father's Day lunch and spent the 
afternoon at his favorite place, the Discovery Science Zone. 
Afterwards, I said, ``Thanks for spending Father's Day with me, 
Keisuke. I love you. See you tomorrow.'' He said, ``Love you, 
too, Daddy.'' Those were the last words I heard from my son. 
That was 2,586 days ago today.
    On June 16, 2008, in violation of my court orders, and with 
the help of her father, Ken Nakata, a retired international 
pilot with Japan Airlines, Reiko bypassed the system, was able 
to kidnap Keisuke, and flee to Japan. Reiko Nakata Greenberg 
Collins has warrants for her arrest by the Orange County 
Sheriff's Department, is on the FBI's Most Wanted List for 
Parental Kidnappings, and has a Red Notice issued by Interpol.
    Even with these Federal and international warrants in 
place, the State Department says it can do nothing. I believe 
it can; it just chooses not to.
    Three and a half years later, I was notified that Reiko 
filed for full and physical legal custody in Japan. In my reply 
I supplied the restraining order, final divorce decree which 
awarded me full physical and legal custody, and proof of U.S. 
jurisdiction of this case. The Japanese court replied by 
disregarding my final divorce order, stole jurisdiction, and 
ruled my restraining order, which stated, ``Minor child not to 
be removed from the County of Orange, State of California, or 
the United States of America'' was too vague. What word in that 
sentence is vague? Nothing.
    As the Japanese family courts have proven time and time 
again, they have a bias against Americans. I will call it for 
what it is: Racism. My case, and the 70 cases listed with BAC 
Home, occurred prior to Japan becoming a Hague signatory, and, 
by definition under the Goldman Act, are abduction cases.
    To date, children are collectively trapped in Japan and cut 
off from us. These cases are not resolved, yet the State 
Department's ICAPRA compliance report unilaterally, and without 
explanation, decided to downgrade all of them to access cases. 
To say the ICAPRA report is an insult and a slap in the face of 
every parent of an abducted child is an understatement.
    The numbers do not add up in any way you try, but create an 
ever-bigger problem as a grossly inaccurate report gives 
potential abducting parents ammunition to go to court, show any 
judge that Japan is compliant with the Hague, and nothing can 
be further from the truth.
    With no American child ever being returned by the Japanese 
Government, nor any ruling in favor of the victimized parent 
ever enforced by a Japanese court, Japan is non-compliant. Even 
using State's own numbers, as ridiculous and as ludicrous as 
they are, Japan is still 57 percent non-compliant, which is 
greater than the 30 percent Goldman Act standard. Japan is 
unequivocally non-compliant. Period.
    Japan's compliant rating in the report is highly suspect 
after the recent testimony of the Japanese Diet on May 14 where 
Takashi Okada, Deputy Director General, and the Secretariat of 
the Ministry of Foreign Affairs said, ``I think I received 
Ambassador Jacobs' understanding about how our country has been 
dealing with the issue of the Hague Convention. The report has 
not yet been released. As I explained earlier to the Diet 
members, because we strive to make an explanation to the U.S. 
side, I hope that the report contents will be based on our 
country's efforts to deal with the issue.''
    The ICAPRA report is not to take into account what Japan 
tells the Ambassador its efforts are. The report is to be 
compiled based on facts and results. There are no facts to 
support Japan as compliant.
    For anyone to make any sort of assurance or to accept 
Japan's explanation, to give it a favorable rating in the 
report, is outrageous. This report must be amended to show 
Japan as non-compliant. Over 400 abduction cases to Japan have 
been registered with the State Department since 1994, and no 
child has ever been returned by the Japanese Government.
    We have suffered years of secrecy from State regarding our 
abducted children. It is the perfect definition of insanity--
doing the same thing over and over again but expecting a 
different result. The results have not changed in 7 years. We 
are still no closer to seeing our children today than we were 
before Japan joined the Hague Abduction Convention. So State's 
actions, or in this case inactions, speak so loudly we can't 
hear what they are saying anymore.
    I would like this subcommittee to insist that OCI and the 
State Department be far more transparent with Congress and with 
victimized parents. We deserve answers. Simply telling the 
subcommittee that we are raising our cases means nothing. Are 
they demanding the return of our children or simply begging? Do 
they drop the issue just because Japan tells them it is too 
difficult to return our kidnapped children? What are the 
answers they are receiving?
    It is time to start holding Japan accountable. Public 
condemnation, implementation of sanctions as outlined in the 
Goldman Act, and the demand that we have access to and the 
return of our American children immediately. My son, Keisuke 
Christian Collins, deserves his father, and I deserve my son.
    Thank you.
    [The prepared statement of Mr. Collins follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you very much.
    Ms. Rutherford.

   STATEMENT OF MS. KELLY RUTHERFORD, CO-FOUNDER, CHILDREN'S 
                        JUSTICE CAMPAIGN

    Ms. Rutherford. Thank you all for being here today. It is 
wonderful to see your faces and to hear the questions that you 
asked Ambassador Jacobs. And I know each one of you really 
believes in this, and it gives us all a lot of hope. I really, 
really appreciate it.
    I would like to thank all of you, Chairman Ed Royce, 
Chairman Smith, Ranking Member Bass, Congresswoman Sheila 
Jackson Lee, who has worked on educating the public about my 
ordeal, and the distinguished members of the subcommittee, and 
these other gentlemen who I am just meeting today.
    Thank you for the opportunity to address you today 
regarding international parental child abduction, or IPCA, and 
my ordeal as a parent separated from her children, and my 
commitment to getting my children back or to stay in this 
country, and working to educate judges and advocating on behalf 
of other parents.
    My name is Kelly Rutherford, and I am U.S. citizen. My 
children were born in this country and are American citizens as 
well. They only hold U.S. passports. In 2012, at the ages of 
two and five, my children were ordered by a California Judge, 
Teresa Beaudet, to leave the United States and reside in France 
and Monaco, two countries where my children do not have 
citizenship and where they had never lived before.
    My kids are here with me in the United States for 5 weeks 
this summer, and I would like to say I had to go to Monaco to 
have them give me that, because in my country no one seems to 
be claiming jurisdiction for my American children, including 
California, even though they sent them there.
    They are currently required to return to Monaco 5 weeks 
from now, in August. I am testifying here in the hopes that you 
can help them and similarly situated children to remain in the 
United States.
    If someone had told me when my children were born, which 
were the two most beautiful days of my life, that one day my 
children would be ordered by an American judge to leave the 
United States and live in a foreign country, I would have not 
believed it. I never thought that what has happened was 
possible in this country, and there are fellow Americans that 
come up to me on a daily basis expressing the same disbelief.
    In 2008, my ex-husband and I both filed for divorce. We 
agreed at the time that California would have jurisdiction over 
the case, even though none of us were living in California at 
the time. I was under contract in New York to do Gossip Girl. I 
have since come to doubt whether it was proper for California 
to handle the case, because nobody in our family had lived 
there for a long time before the divorce was filed.
    My ex-husband made no dispute over money as neither one of 
us sought support of any kind. The only dispute was over which 
parent would have primary custody. I assumed it would be me, 
because I had been the children's primary caregiver throughout 
their lives. This issue became an international controversy 
after my ex-husband left the United States before the custody 
decision was made, and then claimed, through his attorney, that 
he was unable to return to this country because his work visa 
had been revoked.
    In support of that claim, my ex-husband gave the court a 
photocopy of a forwarded email that appeared to have been sent 
to him from the U.S. Embassy in Berlin. The judge took no steps 
to authenticate the email or contact Federal officials to 
determine whether the information was true, even though the 
email contained many irregularities. For example, it was signed 
by the U.S. Consulate in Berlin, and there is no Consulate in 
Berlin. There is only an Embassy.
    The email also contained no date of visa issuance or visa 
revocation, both of which are required under Federal law. 
Despite the email's questionable authenticity, the judge 
accepted the documents as evidence, and based on that email 
alone, ruled that my children must leave their own country and 
reside with their father abroad.
    For reasons that remain unclear today, to this day, the 
judge never asked my ex-husband why he needed a visa to enter 
the United States, given that he was a German citizen and 
Germans come to this country every day on passports alone for 
months at a time. Surely, my ex-husband could have exercised 
his parental rights in America by coming here on his passports 
as he did during our marriage, and just as I have used my U.S. 
passport to travel to France and Monaco over 70 times since 
2012 to see my children.
    By forcing my kids to leave the United States, the judge 
ignored my children's rights to live in their own country as 
granted by the Supreme Court's 1967 decision of Afroyim v. 
Rusk. And because my children were made to live in a country 
where they had no citizenship, the judge effectively rendered 
them nationless, because, as an expert witness explained to the 
California court, many countries, including Monaco, have 
provisions in their laws that allow them to reject American 
court orders and American law generally.
    After living in Monaco for a period of time, my children 
were declared habitual residents of Monaco, subject only to the 
laws of Monaco. They have now lived there for 3 years. They 
said it was temporary. Under the UCCJEA, the habitual residence 
of a child, and not the child's citizenship, determines where 
they live. Though legal experts tell me that this aspect of the 
UCCJEA may be unconstitutional as habitual residency cannot 
trump U.S. citizenship. One of the things that I argued in 
court was that I would be willing to take the kids to see their 
Dad in Monaco and France every holiday and all summer until he 
figured out whatever his work visa situation was. And that was 
ignored, because then we wouldn't have this problem to begin 
with, because they would have stayed in their own country.
    The judge said that even though the visit to France and 
Monaco was temporary that if my ex-husband did not obtain a new 
visa the children would automatically return to this country. I 
saw that ruling as a hopeful sign that, worst-case scenario, my 
children would return home in a year or so, either with their 
father, if he obtained a new visa, or without him, if he did 
not.
    Much to my shock, when I returned to the California court 
in 2014 to ask that my children be ordered to come home because 
Max has done nothing to obtain a new visa, a fact that I 
confirmed through the State Department in 2014, the court 
denied my request and ruled that it had no authority to address 
my ex-husband's immigration efforts.
    The court then questioned whether it even had jurisdiction 
anymore, given that nobody had lived in California for many 
years. This was a curious statement, considering that I had 
asked that the California court previously to relinquish 
jurisdiction said that the case would be handled in New York. 
This is before they were sent there. So we agreed to California 
jurisdiction because the California court refused to allow me 
to move the case to New York.
    So here I was forced to litigate the case in California, 
which sent my children away in 2012, but it was now claiming it 
had no jurisdiction to fix the problem it had caused, and to 
this day that remains the same.
    After that 2014 California ruling, I tried to have the 
children file their own case in the New York Federal Court, 
hoping the Federal Government would bring my children home, but 
that was unsuccessful as well, though we are now asking the 
Supreme Court to review the decision.
    I went to Monaco earlier this year to object to 
jurisdiction there, and I went back to California again last 
week asking for the return of my children, but that California 
judge stated that if I don't live in California, he can't 
exercise jurisdiction for any purpose, including bringing the 
children home to America.
    This case has developed a very strange legal vacuum where 
nobody in this country appears willing or able to do anything 
to help my American children home, bring them home, even though 
this is the country that sent them away. I can only see this as 
a legal kidnapping by a California judge, forcing my children 
to live abroad for so long that the other country seized 
control over their lives.
    How could this be happening? I ask myself. I just ask each 
of you here today how it is possible that two American citizens 
have been ordered by their own Government to live in exile in a 
foreign country. I assume that many of you may have children, 
and can you only imagine a judge ordering you to put your 2-
year-old child on a plane and sending them to live in a foreign 
country?
    There are lots of great countries in the world, and I have 
traveled to Monaco many times. It is a beautiful, interesting 
place. But among the wonderful things about this country is 
that people have a right to choose whether to live here. My 
children did not choose to leave their own country. I and their 
court-appointed attorney in California chose for them to remain 
in the United States.
    When they reach the age of maturity, if they want to live 
abroad, they can do so. Or if both parents make a private 
family decision to raise their children abroad, they can also 
do so. But my children are too young to make such a serious 
decision, and this was not a private family matter. This was a 
court order commanding my American children to leave the United 
States.
    Congress could fix this problem and help many children and 
many others simply by codifying what the United States Supreme 
Court said in 1967, that ex-patriation can never be ordered by 
any court because choosing to live abroad is an individual 
right, not a government power. The Supreme Court explained in 
Afroyim that no right is more fundamental than American 
citizenship. So I ask all of you here today, aren't my children 
American citizens?
    On behalf of my children, and all American children 
affected by similar court rulings from family courts all across 
the country, please do all that you can to make sure that no 
child is ever forced to leave this wonderful country.
    Thank you very much.
    [Ms. Rutherford did not submit a prepared statement.]
    Mr. Smith. Ms. Rutherford, thank you so very much for your 
testimony.
    Dr. Rahman.

 STATEMENT OF SAMINA RAHMAN, M.D. (MOTHER OF CHILD ABDUCTED TO 
                             INDIA)

    Dr. Rahman. I would like to thank Chairman Smith and Mr. 
Meadows, Ms. Jackson Lee, and other members of the 
subcommittee, and my representative Congressman Eliot Engel, 
for giving me this chance to testify.
    My name is Dr. Samina Rahman, and I am Abdallah's mother. I 
am a resident of New York and a citizen of Bangladesh. Today, I 
will be Abdallah's voice. I will address the human rights 
violations, crimes, and injustice he and tens of thousands of 
American children are the silent victims of for decades.
    In brief, Abdallah, who is a U.S. citizen by birth, and 
whose habitual residence is Westchester County, New York, was 
abducted to India by his own father, Salman Khan, a non-
resident Indian citizen, or NRI, who never lived in India prior 
to seeking a safe haven there in April 2013.
    In April 2013, after years of abuse, neglect, and his 
multiple declarations of divorce, I finally informed my husband 
that I agreed for divorce. Despite Shariah law, which would 
grant me sole custody, I promised him shared custody, to be 
fair to him, to which he responded, ``There is no such thing as 
shared custody. I will never share my son.''
    Later, however, he cried in remorse, and he said he wished 
to reconcile. I gratefully agreed. A few days later, he 
announced he was going to Florida to visit his older sister, 
Arshi Khan. She had ex-communicated me in 2011 after she 
physically assaulted me and threatened to break my legs and my 
son's legs and ordered my husband to divorce me and throw me on 
the street. As a resident training physician, I worked 6 days a 
week, so I could not have accompanied them to Florida anyway.
    Four days later, on the day my son and my ex were expected 
to return to New York, I received a text message from a United 
Arab Emirates cell phone number, ``We are in Dubai.'' Two days 
later, my husband ended all contact with me abruptly. His 
parents and other siblings, who live only a mile away from my 
parents' home in the United Arab Emirates, refused to answer 
my, my parents, and my sister's many phone calls on their many 
phone numbers. Arshi Khan did not answer any of my calls 
either.
    At a complete loss, I filed a complaint with the Mount 
Vernon Police Department. They made a phone call to Arshi Khan 
and asked her if she knew her brother's whereabouts. She said 
she had no clue. Her lawyer later admitted to the FBI that she 
had purchased one-way Delta Airlines plane tickets to Dubai for 
her brother and my son.
    However, the very next day, after this call from the 
police, my husband reestablished contact with me. He claimed I 
was having an affair and that is why he had to leave me, to 
protect my son from my immoral ways. He informed me that he had 
moved to India permanently. I later found out that he had also 
emailed my employers, my residency program directors, that all 
my certificates were fake and that I should be fired and 
deported.
    I made many desperate calls at that time, to domestic 
violence hotlines, the FBI, the NCMEC, the Indian Consulate in 
New York, the Indian Embassy in Washington, and the United 
States Department of State. They all advised me to take my 
matter to family court. My parents then retained a New York 
lawyer for me, and we petitioned the Westchester County Family 
Court, since that was my son's habitual residence. However, my 
ex, despite being duly served, refused to appear in court even 
via phone, and instead simultaneously initiated custody 
proceedings in his local district court of Jhansi, India, where 
he claimed that I was an immoral woman who had abandoned my son 
and my husband.
    My parents then hired a lawyer for me in India on the 
recommendation of a close friend of theirs in the UAE. My 
parents, like me, have never lived in India. On the basis of 
clear death threats, which my husband had made against me and 
my father, which I had recorded from a Skype video call in May 
2013, the Supreme Court of India issued a 3-month stay order on 
the Jhansi court proceedings, on the district court 
proceedings.
    However, 9 months later, that same Supreme Court of India 
refused to acknowledge that my son was abducted and ordered 
that I file a petition for a child custody case in a lower 
court of the State of Uttar Pradesh, which is a part of the 
world I have never even visited.
    This is in direct contradiction to India's own 
Constitution. The Guardians and Wards Act of 1890, section 9, 
clearly states that the court that has the jurisdiction to 
entertain the application with respect to the guardianship of 
the minor is the district court of the place where the minor 
ordinarily resides, which, in my son's case, is the Family 
Court of Westchester County, New York.
    The Supreme Court of India not only asserted jurisdiction 
over me, a non-Indian who has never lived in India, but also 
turned a blind eye to the death threats to my father and myself 
by an Indian citizen and threw out my Westchester Court Family 
Court order of sole physical custody without a written, 
unexplained disrespect to the comity of courts.
    Am I really expected to hire a lawyer, site unseen, in a 
country which grants me conditional visit visas of 3 to 6 
months at a time? Am I to make that lawyer my power of attorney 
to represent me in court? Am I expected to wire transfer him 
tens of thousands of U.S. dollars and then trust in God that he 
is really making the court appearances he claims he is making?
    As a non-Indian who never lived in India, I have no records 
of tax filing, property ownership, employment, education, or 
residence in India. So on what basis would an Indian court 
decide whether I am a fit mother or not?
    Tova Haynes-Sengupta from Texas is an American left-behind 
parent. Like me, she has never lived in India. Her 4-year-old 
daughter Indira was abducted to India by her ex-husband Susanta 
Sengupta in December 2013. Due to financial constraints of 
being a single mother who was a homemaker for the duration of 
her marriage, and the fact that she is the sole custodial 
parent of Indira's older brother, she has never been able to, 
and will never be able to, afford to retain a lawyer in India, 
nor make trips every 6 months for a court appearance there.
    She was awarded sole custody of Indira by the Family Court 
of Williamson County, Texas, after her ex-husband was found 
guilty of felony child abuse only months prior to the 
abduction. There is an unlawful flight to avoid prosecution 
warrant issued against Susanta Sengupta.
    Why are Tova and I being asked to petition the district 
courts of India for child custody when we have never even lived 
in India? There are over 30 million cases pending in India's 
courts today. Ninety percent have been pending for over a year, 
and over half of them have been pending over 5 years. So why am 
I being forced to be pending case number 30 million and one?
    Since April 2013, I have been allowed to speak to my son 
only 12 times. Despite the false claims of an Office of 
Children's Issues welfare report from July 2013, my son is not 
allowed to call me, and all my calls to him are screened by his 
father. It has been 27 months since I last looked into my own 
son's eyes. I breast-fed him exclusively for over 3 years until 
he outgrew his cow's milk allergy. I taught him to read, write, 
pray, ride a bike.
    My son, my ex, and I lived with my parents for most of my 
married life. I worked hard on my career as a physician, so 
that I could provide myself and my son with security and our 
home someday, since my husband was unemployed, though he is 
also a medical graduate.
    People often ask me, ``How did your ex get your son past 
five international airports without a notarized consent letter 
from you?'' So I went online and discovered that while the 
Customs and Border Patrol recommends such a letter, it does not 
require such a letter. The U.S.A. has no exit controls for 
people; only for bottles of shampoo over four ounces.
    Americans then ask me, ``Why don't you talk to the State 
Department and they will bring your child back,'' which could 
not be further from the truth. Left-behind parents like myself 
of American children who have been abducted to India have all 
had the same experience in our responses from the U.S. 
Department of State's Office of Children's Issues.
    In December 2014, 4 months after the Goldman Act was signed 
into law, I emailed my OCI caseworker to have my son deported 
back to the U.S.--I thought it was a great idea--because he is 
an American minor living in India on a fraudulently acquired 
residence visa, or overseas citizen card, which by Indian law 
requires the notarized consent of both parents of the minor.
    And this is the response I got from my caseworker, and I 
quote,

        ``The Department of State does not have the authority 
        under U.S. law to inform India that a foreigner is 
        residing there illegally, or to request their 
        deportation. I encourage you to consult with your 
        attorney about the best way to inform the Indian court 
        and the Ministry of Home Affairs, Foreigners Division, 
        about Abdallah's legal status in India.''

    They continue to write,

        ``The Sean and David Goldman Act, ICAPRA, grants the 
        Department of State the authority to employ a full 
        range of diplomatic tools to improve cooperation with 
        India on resolving all cases of international parental 
        child abduction. We strategically tailor our bilateral 
        efforts to India's unique legal and political system. 
        While I cannot share government-to-government 
        communications concerning the status of bilateral 
        efforts or procedures, I can assure you that we will 
        seek opportunities to utilize the tools enumerated in 
        the new law.''

    I was elated to learn that consequent to the Goldman Act 
there were now bilateral efforts and procedures, and 
government-to-government communications ongoing between India 
and the U.S. State Department. Finally, there was hope for 
parents of children abducted to non-Hague Convention countries.
    However, in May 2015, on reading the 2015 annual report, we 
left-behind parents were devastated to discover that there are 
still no bilateral procedures in place between India and the 
U.S., according to the report, whereas section 103 of the 
Goldman Act clearly states not later than 180 days after the 
date of the enactment of this act, which should have been 5 
months ago, the Secretary of State shall initiate a process to 
develop bilateral procedures, including MOU, which include 
identification of the central authority, which was not done; 
identification of the judicial and administrative authority 
that would promptly adjudicate abduction and access cases, 
which was also not done; and identification of the law 
enforcement agencies, not done.
    We at Bring Our Kids Home are outraged to learn that our 
children's cases have been open with the State Department for 
years, but have still not been reported to the Government of 
India. Three years after Reyansh Parmar was abducted, 2 years 
after Abdallah Khan and Nikhita Jagtiani were abducted, yet to 
date the OCI has submitted no application to the Government of 
India for any of these children.
    What prevents the State Department from reporting these 
cases to the Government of India? Child abduction is a crime in 
India under Indian Penal Code 361, punishable by up to 7 years 
in prison. And both the Ministry of Women and Child Development 
and the National Commission for the Protection of Children's 
Rights are mandated by the Indian Constitution itself, to 
uphold the United Nations Convention on the Rights of the 
Child, which India ratified in 1992, which states that India 
has committed itself to, ``Take measures, including the 
conclusion of bilateral and multilateral agreements, to combat 
child abduction and the non-return of children abroad.'' This 
is referring to Articles 11 and 35 of the UNCRC.
    The case of Avinash Kulkarni from California is now 25 
years old. His son Soumitra, who was abducted at age 6 months 
in 1990, is now 25 years old and is completely alienated from 
his distraught father who says that his life stopped the day 
his son was abducted 25 years ago.
    Twenty-five years later, there is still no bilateral 
agreement in place between India and the U.S. to address IPCA, 
which is a crime, an act of child abuse, and a terrible 
violation of children's rights and parental rights. The numbers 
in the 2015 annual report by the State Department are 
inexplicable. Nineteen new abduction cases were reported in 
calendar year 2014. None were reported to a foreign central 
authority, yet 22 cases are reported as resolved.
    What is probably the most alarming is that although India 
is listed as non-compliant, the only remedial measure 
recommended by the State Department is D, encourage India to 
sign the Hague.
    India has a long and well-documented history of treating 
parental abduction cases as routine custody cases, disregarding 
custody court orders from jurisdictions where the child was 
habitually a resident and relitigating those decisions in India 
for several years and millions of rupees. The only person who 
consistently wins in India is the abducting parent.
    It is no secret that our children are abducted to India 
precisely because of the legal and cultural environment 
prevalent in India for decades that provides a safe haven for 
abductors, where they can about their daily lives as if they 
never committed a crime.
    Abducted children from the United States and from around 
the world are rarely returned by Indian courts. So why wouldn't 
the State Department choose to apply the full range of Goldman 
Act recommendations to address their non-compliance, including 
(A) training, the State Department promotes training with 
judicial and administrative authorities on the effective 
handling of international parental child abduction cases; (B) 
training with law enforcement entities on how to effectively 
locate children and enforce court-ordered returns; (F) 
Department officials intensify engagement with the foreign 
central authorities for updates on IPCA cases and to promote 
prompt case processing.
    While we left-behind parents live a nightmare every waking 
moment, what really kills us inside is that we know our 
children suffer far more than us. They were pulled out of their 
homes at the most tender age, cruelly deprived of a mother or 
father's nuture, removed from their family, friends, their 
pets, their school.
    Overnight they find themselves in a new country where they 
are thrust into a new living situation, a new school, with a 
foreign language and foreign customs, where they must always be 
stigmatized and bullied as the Indo-American child whose 
American parent abandoned them.
    They are brainwashed by the abducting parent that they have 
been abandoned and are already forgotten by the left-behind 
parent. And they are forced to turn against their left-behind 
parent in violation of their every natural instinct to love and 
be loyal to both parents.
    My own son was snatched from me at age 6 and is now being 
cared for by a maid who probably did not attend school, who 
cannot even communicate with my son. When I last spoke to my 
son a few months ago, he only knows English. He doesn't know 
any Hindi.
    I am also shocked at how the school that my son was 
enrolled in, the Delhi Public School, which is one of the best 
schools of India with several international branches, has 
enrolled my son without my ex-husband providing a transfer, a 
school leaving certificate, from Abdallah's elementary school 
in New York, without providing recent report cards, 
immunization records, none of that, all of which are typically 
required by the Board of Education for enrollment of children 
between grades one and six.
    Is it not incumbent on every civilized society to protect 
its most vulnerable citizens? We at Bring Our Kids Home 
understand that this is a new era for the strategic partnership 
between the United States and India. Forward together we go. 
Chalein Saath Saath.
    The two largest democracies of the world have agreed to 
work together, not only for the benefit of both nations but for 
the benefit of the world. Together we seek a reliable and 
enduring friendship.
    However, our leaders must never forget Gandhi's words, the 
seven deadly social sins, including politics without principle, 
and commerce without morality. Our children need not be 
considered as sacrifices to the altar of commerce.
    A true friend will tell you the truth about yourself and 
use it to empower you, not to belittle or destroy you. The 
question is: Does the United States have the courage to make 
the human rights and security of American children a priority 
and tell the truth? And does India have the will to lead by 
actions, not just by words?
    Mr. Smith. Ms. Rahman, if you could just briefly, to 
interrupt, we have----
    Dr. Rahman. I am done.
    Mr. Smith [continuing]. We are on zero for a vote. No. We 
will come back, and you can pick up where you have left off. 
But we will take a short recess. We have five votes, and I 
deeply apologize to you for that. But hopefully 20 minutes, 25 
minutes or so, we will be right back.
    Dr. Rahman. Thank you.
    Mr. Smith. And reconvene. Thank you.
    [Recess.]
    Mr. Smith. First of all, let me again express to our 
distinguished witnesses and guests here, I apologize for that 
long delay. We did have a series of votes, and they went a 
little bit longer than advertised.
    But, Dr. Rahman, if you would continue?
    Dr. Rahman. We at Bring Our Kids Home ask Congress that 
they continue to press the State Department to change the way 
they are engaging with left-behind parents and nations that our 
children are abducted to. There have been good communications, 
good conversations between India and the State Department, but 
a year after the Goldman Act there is still no MOU, no treaty, 
as required by the Goldman Act.
    We ask that, though it may be politically unpopular, both 
Congress and State make clear to offending countries that these 
abducted American children must be returned to their habitual 
residence using the full range of diplomatic tools available to 
them by the Goldman Act.
    Thank you.
    [The prepared statement of Dr. Rahman follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you very much, Dr. Rahman.
    Ms. McGee.

 STATEMENT OF MS. DIANE MCGEE (MOTHER OF CHILDREN ABDUCTED TO 
                             JAPAN)

    Ms. McGee. Thank you. Thank you for giving me this 
opportunity to speak today. I would like to start out by saying 
that my children are being illegally retained in Japan by Sean 
McGee currently employed at Nomura Securities. Under the 
International Parental Kidnapping Crime Act (IPKCA), he has 
been retaining them outside the U.S. with the intent to 
obstruct the lawful exercise of my parental rights.
    My children, Brendan, MaryKate, Jack, and Megan are all 
natural born U.S. citizens, holding only U.S. passports. Sean 
and I are also natural born U.S. citizens, holding only U.S. 
passports. We are not Japanese.
    My husband, Sean McGee, works for Nomura Securities. He has 
been retaining my children against my will since December 2012, 
and has not allowed them to return to the United States in over 
3 years. This is not about a custody dispute. This is about my 
children's right to be with and be loved by both parents.
    Much has transpired over the 3-plus years, most notably the 
fact that after an 8-day plenary hearing Judge Matthew Curry 
ruled that my children and I are all bona fide habitual 
residents of New Jersey. Jurisdiction in the State of New 
Jersey. Why is it so difficult to bring my American children 
home to the United States?
    The State Department, via the Sean Goldman Act, released 
its first annual report on countries that refuse to return 
American children who have been abducted or retained by a 
parent abroad. Conspicuously absent from this list was the 
worst offender, Japan. Japan has never enforced or issued a 
return order for any American child being held captive there.
    This scenario of one parent violating the wishes of another 
parent by retaining children in Japan has been going on for 
many years. Japan is a black hole for child abduction. All 
members of the McGee family are American, and they are being 
held hostage by their father in Japan.
    Sean has been able to live a very extravagant lifestyle in 
Japan, thanks to his employer, Nomura Securities. He vacations 
regularly to Phuket, Australia, India, Hong Kong, Korea, 
London, and Portugal. His lavish apartment costs $14,000 per 
month. At the same time, our youngest daughter Megan and I were 
on food stamps for over a year. The gas company, PSE&G, shut 
our power off.
    Sean has not been following through with the court orders 
that are required of him. He is court ordered to pay my legal 
fees. My lawyers are no longer representing me due to his 
willful neglect in payment. In addition, he was court ordered 
to pay the mortgage on the family home. Our home is currently 
in foreclosure due to his willful neglect in payment. Not only 
do I have no one to represent me, but I had to file bankruptcy 
as well. Sean is breaking the law on many levels.
    Our family unit has been torn apart physically and 
emotionally. Not only are they held captive in Japan, but they 
are now victims of Sean's mental abuse. His campaign to 
alienate them from me and my entire family will cause lasting 
repercussions. The children are in grave danger due to his 
alcoholism and lack of supervision. Many nights they are left 
home alone while he is out drinking in Tokyo. The truth is that 
the children are struggling immensely in many areas affecting 
their lives, including academic, mental health, and substance 
abuse.
    Last September, my father died, my children's grandpa, 
Vincent Cianciotto. Sean did not permit them to come home to 
attend his funeral. The role of their grandpa was one to be 
admired, for he took on a fatherly role for them their entire 
life due to Sean's lack of the ability in this area.
    It pains me as a mother to be so far removed and not be 
able to comfort them and love them, as I have done their entire 
lives. You cannot imagine waking up each and every day not 
being able to be with your children. I miss every aspect of 
their being, their smiles, their laughter, and their tears.
    If there are any parents in the room today, I ask you to 
close your eyes and envision one day where you wake up and have 
no idea what is transpiring in the life of your child. That is 
what I have been experiencing every day for the past 2\1/2\ 
years. A void that needs to be filled. No loving parent should 
have to experience this.
    Japan and Nomura Securities, you are aiding and abetting a 
child abductor and abuser. Send my children home.
    Thank you for allowing me this opportunity to tell my 
personal story. I hope this helps to bring awareness of the 
situation in order to return all our American children home.
    Thank you.
    [The prepared statement of Ms. McGee follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you very much, Ms. McGee. And your 
testimony, and that of all of our very distinguished witnesses, 
not only put a human face on the agony that you face, but all 
the others who have been left behind. And, frankly, this is 
like our fifteenth hearing or so, and always with a group of 
people who have lost loved ones, children, or had a court, as 
in Ms. Rutherford's case, do an awful job and not 
understanding.
    And, Ms. Apy, you might want to speak to uninformed judges 
and how deleterious that is to cases, if you would.
    But thank you so very, very much for that. Just a couple of 
questions.
    You were all here for the testimony from Ambassador Jacobs 
earlier. The fact that egregious omissions remain in the first 
report seem to be on the cusp of being rectified. I will wait 
and see. I am not from Missouri, but I am from New Jersey, and 
we have the same motto sometimes. But the abduction idea of 
unresolved cases for zero for Japan, obviously for two of you 
had to have been like a hot poker in the face.
    I mean, when I read that, I kept saying, ``I am missing 
something. What am I missing?'' And the Ambassador did indicate 
that they are going to fix that, but with that comes the 
designation of non-compliant, which follows like day follows 
night. And we will be asking, as I did here today, repeatedly 
asking that, don't wait until next year's report. Do it now. 
And my hope is that they will do it now, and then take 
appropriate actions.
    The only reason I brought up how we got Korea and Israel's 
attention on trafficking was that we couldn't have closer 
allies than those two countries, and yet we were honest enough 
to put in the report for trafficking exactly what the situation 
was on the ground. No games, no brinkmanship, no omissions.
    So I can assure you we are going to keep trying, and 
hopefully she and the Office of Children's Issues and all those 
who make decisions at State will amend an egregiously flawed 
report.
    And I also, hopefully, will finally get to the bottom of 
what do the Foreign Service Officers do, what do OCI people do 
in a very tangible way to take the cases and represent the 
American citizen, you, who has been so wrongly dealt with.
    So maybe some thoughts on that, if any of you would like to 
share what you think the Department has done.
    Ms. Apy, on prevention and recovery, what does the State 
Department's excluding pending abduction cases from the report 
have on the goals of prevention and recovery?
    Ms. Rutherford, you made some recommendations for possible 
legislation. If you could maybe elaborate where in the queue is 
your case, before the U.S. Supreme Court, I take it? Or is it 
State Supreme Court?
    Ms. Rutherford. My lawyer hasn't----
    Mr. Smith. Okay. Okay.
    Ms. Rutherford [continuing]. But I definitely think there 
needs to be things put in place. I mean, my case is a little 
different because it is court-sanctioned child abduction.
    Mr. Smith. Right. Right.
    Ms. Rutherford. But a lot of the problem is, when the kids 
are over there, you can't just come get them and bring them 
back or you will be in trouble here. For instance, I can't just 
go get my kids, even though nobody is claiming jurisdiction, 
because I am still bound to the California court order, right? 
So it is not like I can just go get my kids and bring them back 
here and say, ``Okay. Somebody decide who has jurisdiction,'' 
because I can't go to either country. So you are in this 
vacuum.
    I think it is the same with the kidnapping, where you can't 
just go to Japan and bring the kids back here either unless 
your country decides to protect you and you are a U.S. citizen. 
So maybe if we can at least ourselves go back and kidnap them 
back, and be protected by our own country somehow, that would 
be good.
    Mr. Smith. Well, you----
    Ms. Rutherford. We are willing to do it.
    Mr. Smith. In Japan----[Laughter.]
    Ms. Rutherford [continuing]. If our country won't, but we 
just need to be backed by our country saying, ``You did the 
right thing. We couldn't figure it out, but you as a parent 
figured it out, but we are going to back you, and your kids 
will stay here in the U.S.'' But there is that loophole, too, I 
think.
    Mr. Smith. Okay. Thank you.
    And, again, Ms. Apy maybe to speak to the issue of judges 
being properly trained and informed about these cases.
    Ms. Apy. Well, I think, first of all, and I mentioned it 
briefly, but one of the most stunning moments of the testimony 
was--and I don't think she appreciated it as an admission, but 
admitting that the application of non-compliance was based on 
the old test and not based on the content of the new law, which 
requires objective numbers.
    I am very concerned, however, that the promises that we 
heard with respect to changes in the report--first of all, it 
is not just Japan. We talked about Japan, because it is so 
obvious, and reaches the level of almost black comedy to be in 
a situation where you have a room filled with people who know 
that there are ongoing cases. And to see in print not only that 
it is not a situation of non-compliance, but also a situation 
where the case isn't even referenced as being in being, that is 
not the only country where that is reflected.
    I am very concerned with the removal of any case in which 
custody is being proffered as no longer constituting a pending 
abduction case. There is also a failure--and I understand that 
since this is the first piece of legislation worldwide to 
address access that figuring out the access issues and how that 
will be done would take additional time.
    The original comment to the report was not that we need 
more time. There was nothing in the report that said, ``Yes, we 
have done a truncated report. But as it turns out, we are going 
to need a little bit more time to address how these definitions 
now fit with the reporting requirements.''
    The first time that the timeframe for reporting was raised 
was in response to the criticisms of the content of the report, 
because I am sure that if there had been a request for an 
extension of some kind because of the complexities of the 
definitions or a request to garner more information in 
reviewing them, that would have been addressed. There was no 
request. The report was issued with determinations regarding 
conformance and non-conformance.
    I would like to address India briefly, because of what I 
think is the persistent desire to continue in the mind-set that 
preceded this law. The only reference made in dealing with the 
Indian cases is to press the signator to the Hague Abduction 
Convention. I totally support efforts to do so.
    However, there is no question that had India been addressed 
in a more aggressive way, we would be talking about negotiating 
MOUs, which of course the Department of State, as a matter of 
formal policy, refused to do prior to this act. The idea in the 
act is that whether a Hague country or a non-Hague country, a 
memorandum of understanding or other bilateral discussions were 
to be formally engaged in, so that the conditions of those 
MOUs--I like to say MOU with a hammer--the idea is that we are 
not going to have private, unknown, unnamed, unseen 
conversations, and then tell left-behind parents, ``Well, we 
have talked about your case.''
    Now, I know that in a number of cases where that 
representation has been made, no one that I have been in 
contact with references individual cases that I am aware of 
having been diplomatically discussed. I don't think this is a 
matter of national security. I think that the issue is one of 
accountability.
    There are sensitive conversations, and we all understand 
that they would take place, but the point of having objective 
actions in the bill--and now the law--was so that there would 
be transparent and public censure to behaviors that are deemed 
to be not in keeping with international law.
    And the first efforts at compliance with this act harken 
back to the diplomatic efforts that were done without scrutiny, 
and based on subjective diplomatic determinations that were 
deemed by this Congress to not be adequate. It was not adequate 
to merely have an independent determination that, is there 
difficulty with judicial compliance?
    And the reason for that was, even in that setup, unless all 
three categories were met, the country was not deemed to be 
non-compliant. So if a country never issued a return order, it 
could never be non-compliant because you would never get to law 
enforcement.
    It made no sense. It was subjective. It was not responsive, 
and so it was changed by the Congress. But you heard today that 
the test that was applied--and apparently will be applied at 
the end of the week--is the old test. And the way that they got 
away with it was by not giving objective numbers for the number 
of pending cases, because if they had they would have no 
choice. They would have to look at the actions that are 
mandated to be taken under the new act.
    I am delighted to hear, although I have some incredulity, 
about a report that will be issued in a week. However, if it 
only deals with Japan, and if it does not also include 
compliance with the actions portions, if it doesn't deal with 
accounting for what actions have been taken in India in 
addition to suggesting that they sign the Hague Convention, 
then we will be another year and the faces that are now 
becoming familiar to us will again be sitting here and asking 
the same questions.
    It is supposed to be hard. The deal is, if these parents--
and I said this before--this is not about them not taking all 
efforts necessary to litigate their cases and apply the rule of 
law. They are in a situation where despite having done 
everything that they are supposed to do on a systemic nation 
state level, they cannot get the remedies, which is why this 
act was originally conceived and should be applied.
    And it is clear that either there is a huge lack of 
understanding or, as my written remarks I indicate, or a 
continued resentment to the provisions of the act about which 
the Department of State is uncomfortable. They opposed this 
act, and I would like to think they haven't gone into 
compliance with it kicking and screaming. But all evidence 
seems to support that they have in fact not been enthusiastic 
in their desire to be in compliance.
    Mr. Smith. Mr. Collins, when you decided to attempt an 
access agreement, did you give up your longstanding claim for 
return or otherwise change your case with the State Department 
from return to access?
    And, if I could, Ms. McGee, how has Japan responded to New 
Jersey's claim of jurisdiction in the case?
    Mr. Collins. I didn't change anything. My whole thing from 
the get-go--my whole thing from the beginning is I want access 
to my son. He is a U.S. citizen, born here. He was illegally 
taken.
    Mr. Smith. So you still maintain your earnest desire for 
return.
    Mr. Collins. Absolutely. I have two court orders that state 
``Minor child not to be removed from''----
    Mr. Smith. I just wanted to get that on the record.
    Mr. Collins. Yeah.
    Mr. Smith. Appreciate that.
    Ms. McGee.
    Ms. McGee. Japan ignored the jurisdiction order totally and 
actually gave him a divorce without my consent or knowledge at 
the time, without me being present, without me being served. 
And so he has a divorce order in Japan and custody of all four 
children in Japan that, according to Judge O'Neill in New 
Jersey, has stated that he is not allowed to use that court 
order here. It doesn't mean anything here.
    But I have no access to the children in Japan, because he 
has full custody over there. And it is not a legal divorce or 
anything.
    Mr. Smith. I think, Ms. McGee, your presence here today 
further underscores that whether it be a father or a mother, 
Japan is a haven for child abductors, notwithstanding their 
signature and ratification of the Hague. And maybe there are, 
and I do believe there are some people within the Government of 
Japan--I have met with some there--who are reformers and want 
to see systemic change.
    But it seems to me that we will sharpen the mind if we do 
our due diligence as a country, pursuant to the Goldman Act, 
and get it right first with the report, and do that with every 
nation, not just Japan, which--where it is egregiously flawed, 
but also to then apply the sanctions part, which should kick in 
on or about August 15.
    The whole idea, we followed the way we did it in the 
trafficking law was to have first the report, and then for some 
serious consideration of what the sanctions regime should look 
like. And so my hope is that next week, from the Department, we 
will not only get a report that is right, but then they will 
sharpen their pencils and figure out what, if anything, they 
should do. And I think there are some things that ought to be 
done vis-a-vis Japan to get their attention.
    Mr. Meadows.
    Mr. Meadows. Thank you. I am sorry I was slipping out 
dealing with another emergency and votes. But thank each of 
you. My heart goes out to you. And truly as best I can, not 
being in your situation, will certainly try to understand it 
and be an advocate for each one of you.
    I guess one of the frustrations--and all of you were here 
to hear the Ambassador, and I do believe that the 80 people 
that she mentioned truly want to solve this problem. There are 
all kinds of diplomatic hurdles, but the frustration many times 
can be with regards to the State Department and that there is 
the bureaucracy, there is the lack of connecting, consequences 
with inaction. And I think that is what we all see.
    And so I want to ask, for those of you that have been 
dealing with the State Department, how would you characterize 
those conversations? Are they enough? I mean, let us take it 
back away from the results. But are they keeping you informed? 
Do you feel like when they say they are working on it that they 
are actually working on it? And really want to get your 
perspective of that, if we could. And we will just go down--
quickly down the----
    Ms. Apy. Thank you. I had a conversation in which 
Congresswoman Lois Frankel, my client, Mr. Dahm, and 
representatives from the Department of State were on the 
telephone to discuss the pendency of the case. The 
representatives could not tell me--from the Department of State 
could not tell me why the UAE was not listed at all as having 
the pending case.
    They couldn't tell me the location of the child. The 
information that they provided with respect to the status of 
the case was information that I had originally given to them 
almost 2 years earlier. They had no idea who the current FBI 
agent on the case was, despite the fact that the Department of 
Justice identified the State Department OCI as being the ball 
carrier.
    My experience--and I get very frustrated--is that when I 
have these conversations the answer is usually either, ``I will 
get back to you'' or the ubiquitous, ``We have been having 
conversations, and we have mentioned your case at the highest 
level.'' That seems to be a euphemism for it is--I don't know, 
it is on a list, it is--again, and I tend to press that issue, 
because absent a national security concern I think there are 
things you can share with a parent, and things you can share 
with regard to where that conversation is.
    And both on an individual level, as well as of course when 
there are systemic conversations taking place, I think there is 
still a reluctance to engage in those systemic conversations. I 
think that that becomes extremely frustrating for parents and 
for those who are attempting to work the cases.
    I would also note that nowhere in the report is there the 
required reference to the number of cases that involve our 
servicemembers. So those conversations, when I ask, you know, 
this is a servicemember, are we following up on it from that 
standpoint? There just isn't any response in that regard.
    Mr. Meadows. Thank you.
    Mr. Collins, before we go to you, I will say there is 
sometimes a reluctance to share details because of the fear of 
lack of cooperation if you share. And so I would offer each one 
of you, if you feel like it is more appropriate, to reach out 
individually instead of under sworn testimony.
    Feel free to adjust your comments privately, and that goes 
to the rest of you. Mr. Collins.
    Mr. Collins. We can go back to the beginning of my case 
when the DA filed the charges and passed it on to the FBI. It 
took the FBI over a year to finally return my phone call. I 
called the agent of my case three to four times a week every 
week, and they never returned a phone call.
    Caseworkers, I know they are doing the best that they can. 
About I think it was probably 4 years ago we were told in one 
of these hearings that these caseworkers want to be there for 
you. They are going to be in place. They are not going anywhere 
because they were coming in and out so quick.
    I have just had my third caseworker this year. So it is 
like a semi-annual thing. And the only communication I get is--
well, I got one 2 weeks ago. ``Have you heard anything new?'' 
So I get like an annual call.
    I did--I was one of the first cases accepted by the JCA, 
and I got an email from my caseworker that came through the JCA 
saying that they have accepted my case. And then about--they 
would get back in contact with me when they have located my 
son. About 6 weeks later, I got another email saying they have 
identified an address, but there has been no response. And 
then, 2 weeks later was the last one that said, ``We still have 
gotten no response. It is past the deadline. You need to hire 
an attorney.''
    Mr. Meadows. Okay. Thank you, Mr. Collins.
    Ms. Rutherford.
    Ms. Rutherford. Ambassador Jacobs had helped--I had reached 
out to her a while ago, asking her to help in terms of just 
asking if my ex-husband had even reapplied for a visa. And they 
were helpful and wrote a letter saying, no, there was no 
application for him; he hadn't reapplied.
    Beyond that, I think what I run up against is that most 
people see it as an ongoing litigation, or they refer to it as 
that. Nobody wants to get involved in that. They see it as a 
custody dispute, so they don't want to get involved in a 
custody dispute.
    Mr. Meadows. Do you mean the State Department is saying 
that?
    Ms. Rutherford. Well, I think in general the people that I 
have asked to reach out to the State Department and myself have 
gotten that response. And it is almost like domestic violence. 
You hit a kid on the street, it is a crime and you are in front 
of a jury. You hit your own kid in your own home, it is 
domestic violence. Same with your wife or husband or whatever.
    Mr. Meadows. Sure.
    Ms. Rutherford. It seemed it very differently when it is in 
family court than it is if it was in criminal court or another 
court. So I think it is that same gray area of there is no 
jury, there is no one sitting there, it is kind of this family 
thing, an ongoing dispute litigation thing.
    And so it is not dealt with in the way that it should be in 
terms of immigration issues or criminal issues or all of this, 
because it is family. That seems to be the response I get is 
that they can't help me because there is this sort of family 
court, ongoing litigation kind of thing.
    Mr. Meadows. Okay. Thank you.
    Dr. Rahman. The communications I have had with the State 
Department Office of Children's Issues caseworker, usually they 
will ask me if I have heard anything new, that is about every 6 
months. So that is one problem.
    The other problem--and then they never sent--formally sent 
an application for my son. I asked them last week, and 2 days 
ago I got the email that they never submitted a formal 
application for my son's return to any Government of India 
office. They raised his name in May, but there is actually no 
application, which means he will not be included in next year's 
report until there is an application for him.
    Mr. Meadows. And why did they say they had not?
    Dr. Rahman. Because India didn't sign the Hague, no foreign 
central authority has ever been identified for India. That is 
the reason I got by email. Because India didn't sign the Hague. 
So there is no foreign central authority.
    So, and one thing that disturbed me was that my case, it 
took me a long time to figure it out, because this whole 
abduction thing is new to me. So my son, like any Indian 
citizen, or any American citizen, can live in India on an 
Indian green card that is called the Overseas Citizen of India 
Card.
    Mr. Meadows. Right.
    Dr. Rahman. And that needs parental consent from both 
parents, notarized consent. People with OCI cards, they can 
come and go into India. There is no need for an exit permit, 
and they never have to register at a police station or an FRRO 
office.
    It took me 2 years to find that out, and I have to tell my 
caseworker that. And he thanked me for sharing the information 
with him. He found it very helpful. So----
    Mr. Meadows. So what you are saying is is that you are the 
source of some information at least for your State Department 
caseworker.
    Dr. Rahman. For my caseworker, yes, at the State 
Department, which is unfortunate because I don't know anything 
about India myself, and I was hoping that they would know 
something because that is what they deal with. They have an 
embassy or consulate there.
    Mr. Meadows. All right. Thank you. Ms. McGee.
    Ms. McGee. Yes. The State Department has shut me out, 
because my case is before Japan signed the Hague. So I don't 
fall under their criteria. And I have also been told it is more 
of a custody battle, which it is really not. So that is what I 
have gotten from them, but it has been a while since I have 
even talked to them, because they have not been able to help 
me.
    Mr. Meadows. So I guess when they are saying this is a 
custody battle, and they are not wanting to weigh in, you are 
talking to lawyers at the State Department or just caseworkers?
    Ms. McGee. I spoke to the caseworkers. I think I have sent 
them a lot of court orders and things like that to show them, 
but they----
    Mr. Meadows. But they are giving a legal opinion?
    Ms. McGee. They are giving an opinion that----
    Mr. Meadows. This is a softball question.
    Ms. McGee. Yes. [Laughter.]
    Well, also the fact that mine started before they signed 
the Hague, so I don't count. My kids don't count.
    Mr. Meadows. Well, I know I speak for the chairman. If 
there is anything that we personally can do to help that 
process with the State Department, we will be glad to do that.
    I will yield back, Mr. Chairman.
    Mr. Smith. I will just conclude, you know, the promise of 
the Goldman Act remains underrealized. This is the beginning, 
and implementation is key. If we do find that there are needs 
for tweaks or upgrades for reforms, we will do it, but so far, 
as you pointed out, Ms. Apy, using an old standard to judge 
countries as opposed to the new very clear and precise standard 
is mind boggling, in my opinion. And I did say that to the 
Ambassador previously.
    I do think that the key of what we are trying to do at 
these hearings--and there will be more, and we are trying to 
get more members to really get involved with this issue.
    Matter of fact, one of the provisions of the Goldman Act is 
for the State Department to notify a Congressman or 
Congresswoman if, and the Senators, to give, obviously, the 
constituent who has the abduction against them the ability to 
opt in, but to tell them that having additional eyes and ears 
and advocacy is a good thing, get members who will speak out.
    When they travel, they will raise these issues. So 
hopefully that is being implemented effectively. I don't know 
yet, but I should have asked that question earlier.
    Dr. Rahman. Might I add something?
    Mr. Smith. Yes, please.
    Dr. Rahman. Last week I got the email asking me to sign off 
a privacy waiver thing to allow State Department to inform my 
Congressman of my case, which is last week.
    Mr. Smith. Just last week.
    Dr. Rahman. It should have been done some time ago.
    Mr. Smith. Better late than never and hopefully that will 
become the norm, and everyone will get that, which I think is 
likely.
    Yes, Ms. McGee.
    Ms. McGee. I have to call the Congressman's office and let 
him know, and I had many other people call his office to let 
him know. So I was glad he was here.
    Mr. Smith. If there is anything you would like to say while 
we conclude, but just I thought, Ms. Apy, you didn't read this, 
but it is in your written testimony, again, this whole issue of 
prioritization.
    The Goldman Act--that is my word--you said ICAPRA; I don't 
use those words--

        ``articulates Congressional intention that an 
        individual left-behind parent and their legal 
        representatives will no longer be forced to litigate 
        `systemic' maladies in the diplomatic relationship 
        between that country and the United States of America. 
        Once it is determined, using entirely objective 
        criteria, that there is a breach in the reciprocal 
        relationship with a Treaty partner, or there is a 
        systemic governmental failure to address international 
        parental abduction, the burden for action shifts to the 
        Department of State to utilize the diplomatic tools 
        available to it to identify and ameliorate the 
        problems. If they can't, when they can't, the President 
        of the United States has an escalating arsenal of 
        measured diplomatic resources to direct attention to 
        the problem and communicate its priority of the 
        American people.''

I emphasize the word ``priority.'' And then you go on from 
there.
    And that summarizes what we have tried to do with this. 
Hopefully, it will be effectively and aggressively implemented. 
That remains to be seen. And there are tests, like what do they 
do vis-a-vis Japan, and some of the other countries, and we 
will stay at it.
    Thank you for your testimonies. Yes, Ms. Rutherford.
    Ms. Rutherford. Is there something that can be put in 
place, like a Web site or something, and maybe we need to do 
this ourselves, where people can report how often this is 
happening, because it has been a long road for all of us to sit 
in front of you here. And I know that for most parents that 
don't have the resources certainly that I have had and still 
had to deal with this, I mean, I don't even know what they do 
or how they get here.
    But is there a place where these things are being reported?
    Mr. Smith. There is no one clearinghouse. Bring American 
Children Home, BAC Home, I should say, Bring Sean Home has a 
Web site where many people do go on and share best practices 
and what their situation is.
    Ms. Rutherford. Okay.
    Mr. Smith. But in terms of one watershed type of--yes, Ms. 
Apy.
    Ms. Apy. I would also encourage--and, again, the National 
Center for Missing and Exploited Children's international desk, 
one of the advantages is that they sometimes give more breadth 
to the issues than one might find from the Department of State.
    Additionally, they have exceptionally good connections with 
law enforcement, to the extent that you are working through the 
law enforcement piece of this, which is by no means easy and 
should be the subject of a separate hearing, frankly, in terms 
of Title III of this act and those implementation issues, 
because we are off the rails there, too, I am afraid.
    But NCMEC is a good go-to place to begin to develop the 
vocabulary for that, and to make those connections. But I think 
that the conversation, again, is finding pieces of information 
from various sources, and NCMEC would be one that tends to pull 
some of those together.
    Ms. Rutherford. So I am just trying to understand this. So 
the State Department is saying that there are zero reports of 
kids being kidnapped in Japan?
    Mr. Smith. Zero unresolved cases, and we know of at least 
50. We have two here.
    Ms. Rutherford. Right.
    Mr. Smith. A few sitting right behind you, and the National 
Center for Missing and Exploited Children testified more than 
50 cases.
    Ms. Rutherford. Right. So facts and figures are everything, 
obviously, to all of these people. So how do we get all these 
facts and figures? Because I have people stopping me on the 
street daily, so--and I don't think that people really know 
where to go and report these things. And it is more specific, 
so I think people think, ``Oh, that may be a little different 
than my case,'' but certainly my case is different than that.
    Mr. Meadows. Mr. Chairman, you make a valid point. I will 
be glad on your behalf to try to work on that to make sure that 
from an official standpoint that we have a Web site. There are 
some privacy issues, you know, just like with you guys having 
to sign a privacy release. I can't talk to the State Department 
about your case without you giving me permission to do that.
    Ms. Rutherford. Right.
    Mr. Meadows. But there may be some ways that we can work 
that, and I personally will follow up and report back to you, 
Mr. Chairman.
    Ms. Rutherford. Just so we have some numbers, right, that 
are undeniable?
    Mr. Smith. Well, that is what the OCI should have been 
doing. And one of the questions we had even before the Goldman 
Act was the numbers never jived. There was always one number, 
it would change, we would have a meeting with key people at 
OCI, and we would get different numbers at the meeting.
    With regards to Brazil, one time I almost fell off my chair 
when we got two different numbers from people sitting in the 
room. What is it?
    Ms. Rutherford. Well, it depends on how those are 
aggregated. I mean, depending on where they are getting their 
information, there is going to be a dispute. But even if you 
just say, okay, let us round it off, this is probably a good 
estimation of how often it is happening, because I know the 
facts and figures are the most important, it seems, to 
everyone. So----
    Mr. Smith. Well, the facts help us to----
    Ms. Rutherford. Well, I mean, you know what I am saying. 
Just say if this many people have reported it, we may not know 
their individual stories, but if that many people are--you guys 
have to go vote again.
    Mr. Smith. One of the reasons not often articulated why we 
wanted the Goldman Act to pass was that so that more people 
would feel it would be an engraved invitation to use the State 
Department. There are cases we know nothing about. These are 
just reported cases that State has, and they didn't even have 
an accurate number of that.
    And the most recent report, as we have been talking about 
all day today, it is not even accurate here. And, you know, 
that is deeply troubling. There should be no other geopolitical 
consideration when you are doing this report. What you do on 
meting out sanctions, maybe some things ought to come into 
play. Not on the report itself; that is foundational. So we 
would hope that this would be the ultimate clearinghouse.
    Ms. Rutherford. Right.
    Mr. Smith. Yes.
    Ms. Apy. The other point, the reporting back to Congress, 
one of the main reasons to do that was to avoid exactly the 
situation that we are in, and that is that the State Department 
was the purveyor of the numbers, and there was no way for 
members to have any accurate information other than if they 
were contacted by their constituents.
    The State Department pushed for, obviously, if personal 
information about the cases were needed, that there be privacy 
concerns, and we all agree with that. But it doesn't obviate 
the responsibility to get the information to the Congress of 
the United States accurately without the private information 
regarding the case.
    And I think that is the piece that is, not to circle back 
on the report too much, but that is the only other place you 
will get it. So unless your constituent calls you or the State 
Department contacts an individual and says, ``Will you opt 
in?'' the original language was to opt out. And so that was a 
change that State Department wanted and got.
    The bottom line is that the numbers have to be right, and 
so I just encourage that I don't think that there is 
encouragement to sign off on the privacy issues, and I don't 
think that there is a desire necessarily to make sure that that 
information is as transparent as perhaps members would and need 
to know.
    You are dealing--as we have talked about before, you are 
dealing with international issues in which knowing accurate 
numbers is absolutely crucial to the business of governing.
    Ms. Rutherford. I signed those waivers, and they got the 
same response that I did from my representative. So it didn't 
matter whether they reached out or I reached out. So it would 
be good to get the number here.
    Mr. Smith. Thank you so very much. We will likely have a 
follow-up hearing in September, especially when the sanctions 
part kicks in, but also to ascertain what has been done on 
Japan, for example. And, you know, the key here would be to 
keep Congress, as well as the administration, focused so that 
we don't get the kind of egregious mistakes that were made in 
this report.
    Again, so thank you. Your testimonies were extraordinary 
and extremely helpful to the Congress, and this will be widely 
circulated to other members. So thank you so very much.
    The hearing is adjourned.
    [Whereupon, at 1:27 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                     

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                             

 Material submitted for the record by the Honorable Edward R. Royce, a 
Representative in Congress from the State of California, and chairman, 
                      Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
